<html>
<title> - JOINT HEARING TO RECEIVE LEGISLATIVE PRESENTATION OF THE DISABLED AMERICAN VETERANS (DAV)</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
   JOINT HEARING TO RECEIVE LEGISLATIVE PRESENTATION OF THE DISABLED 
                        AMERICAN VETERANS (DAV)

=======================================================================

                             JOINT HEARING


                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS

                               before the

                     U.S. HOUSE OF REPRESENTATIVES

                                and the

                              U.S. SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, FEBRUARY 26, 2013

                               __________

                            Serial No. 113-5

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
79-940                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ea8d9a85aa899f999e828f869ac4898587c4">[email&#160;protected]</a>  


                     U.S. HOUSE OF REPRESENTATIVES,

                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

            Helen W. Tolar, Staff Director and Chief Counsel

                              U.S. SENATE,

                     COMMITTEE ON VETERANS' AFFAIRS

                   BERNARD SANDERS, Vermont, Chairman

JOHN D. ROCKEFELLER IV, West         RICHARD BURR, North Carolina, 
Virginia                             Ranking Minority Member
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
SHERROD BROWN, Ohio                  MIKE JOHANNS, Nebraska
JON TESTER, Montana                  JERRY MORAN, Kansas
MARK BEGICH, Alaska                  JOHN BOOZMAN, Arkansas
RICHARD BLUMENTHAL, Connecticut      DEAN HELLER, Nevada
MAZIE HIRONO, Hawaii

                     Steve Robinson, Staff Director

                 Lupe Wissel, Republican Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           February 26, 2013

                                                                   Page

Joint Hearing To Receive Legislative Presentation of The Disabled 
  American Veterans (DAV)........................................     1

                           OPENING STATEMENTS

Chairman Jeff Miller, U.S. House of Representatives..............     1
    Prepared Statement of Chairman Miller........................    22
Senator Bernard Sanders, Chairman, U.S. Senate, Committee on 
  Veterans' Affairs..............................................     4
Senator John Boozman, U.S. Senate................................     6
Hon. Michael H. Michaud, Ranking Minority Member, U.S. House of 
  Representatives................................................     6
    Prepared Statement of Hon. Michael H. Michaud................    23
Hon. Loretta Sanchez (CA-46), U.S. House of Representatives......     7

                               WITNESSES

Larry A. Polzin, National Commander..............................     9
    Prepared Statement of Mr. Polzin.............................    24
    Accompanied by:

      Gary J. Augustine, National Service Director
      Joseph A. Violante, National Legislative Director
      Barry A. Jesinoski, Executive Director, Washington 
          Headquarters
      Arthur H. Wilson, National Adjutant
      Ron B. Minter, National Director of Voluntary Service
      Donna M. Adams, National Commander, Disabled American 
          Veterans Auxiliary

                        QUESTION FOR THE RECORD

Letter and Post-Hearing Question From: Hon. Michael Michaud, 
  Ranking Minority Member, U.S. House of Representatives, 
  Committee on Veterans' Affairs, Full Committee, To: Joseph A. 
  Violante, National Legislative Director, Disabled American 
  Veterans (DAV).................................................    42
Response From: Joseph A. Violante, DAV, National Legislative 
  Director, To: Hon. Michael Michaud, Ranking Minority Member, 
  U.S. House of Representatives, Committee on Veterans' Affairs, 
  Full Committee.................................................    43


   JOINT HEARING TO RECEIVE LEGISLATIVE PRESENTATION OF THE DISABLED 
                        AMERICAN VETERANS (DAV)

                       Tuesday, February 26, 2013

             U.S. House of Representatives,
                                   and U.S. Senate,
                            Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The Committees met, pursuant to notice, at 2:04 p.m., in 
Room 345, Cannon House Office Building, Hon. Jeff Miller, 
[Chairman of the Committee] presiding.
    Present from House Committee on Veterans' Affairs: 
Representatives Miller, Lamborn, Roe, Flores, Denham, Runyan, 
Benishek, Coffman, Wenstrup, Cook, Michaud, Brownley, Titus, 
Ruiz, McLeod, Kuster, O'Rourke, and Walz.
    Present from Senate Committee on Veterans' Affairs: 
Senators Sanders, Blumenthal, and Boozman.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    The Chairman. The Committee will come to order.
    Good afternoon, everybody. It is my privilege to welcome 
you to today's joint hearing of the House and Senate Veterans' 
Affairs Committees to receive the legislative priorities of the 
Disabled American Veterans.
    Before we get started, we have just one small bit of 
housekeeping. After I give an opening statement, Chairman 
Sanders, Ranking Member Michaud, and Mr. Boozman on behalf of 
Mr. Burr will give one. And then I would like to ask all other 
Committee Members, if they would, to waive their opening 
statements. We will give you an opportunity after today's 
testimony to give that statement if you wish or you can enter 
it into the record.
    It is an honor for all of us to be here with you this 
afternoon. I don't know when we have had this many DAV members 
in this room, and I want to say thank you to each of you for 
the sacrifice that you made for this country. You continue to 
sacrifice selflessly out of uniform through the work in the 
Disabled American Veterans, so on behalf of a grateful Nation, 
thank you for your time this afternoon, for the many charitable 
endeavors that you participate in and for your brave and 
honorable service to our country.
    I want to extend a special welcome to your national 
commander, Larry Polzin, who is here with us today, a service-
connected Vietnam Air Veteran and career DAV employee. Thank 
you for your leadership and for your attendance today, sir.
    I also want to welcome Donna Adams, the national commander 
of the DAV Auxiliary. Thanks for being here and for all the 
good work that the auxiliary does for our veterans.
    And finally, I want to recognize those DAV members from 
Florida who are here in the audience today. Each of you is a 
credit to our community and I am proud to have you here in our 
Nation's capital. On behalf of all our neighbors in the 
sunshine state, I thank you for your service and your 
sacrifice. If the members from Florida would just raise their 
hand, I would appreciate it. It is good to see you. Thank you 
very much.
    As I mentioned earlier today, we are joined by Chairman 
Sanders, Ranking Member Michaud, and Acting Ranking Member 
Boozman when he arrives, as well as Committee Members from both 
sides of the aisle and both the House and the Senate. And I 
want to especially welcome warmly my friend and colleague from 
Vermont, Bernie Sanders, who joins us today as the new Chairman 
of the Senate Veterans' Affairs Committee. Welcome.
    I am glad to have you here, Bernie, and I look forward to 
working with you closely on issues that I know that you are 
very interested in. You have been an advocate for many years 
for improving veterans health care and benefits provided by the 
Department of Veterans Affairs. I, again, look forward to 
working with you over the coming years.
    Commander Polzin, that work begins with your testimony 
today, and after reading your written statement, there can be 
no doubt you have much to be proud of.
    Due to the hard work and the dedication of DAV's 1.4 
million members, veterans are provided with professional 
benefits counseling and claims assistance, transportation to 
and from the VA health care facilities, TAP services and onsite 
care at military treatment facilities and VA medical centers 
and clinics, as well as at home. That is just to name a few of 
the many services that are provided by DAV each day. I have 
witnessed many of these efforts firsthand and personally.
    I am grateful to each of you for the hard work DAV does 
across this country, and I am also grateful for the hard work 
DAV does right here in Washington. In my two years as Chairman, 
I have worked hand in hand with DAV and other veteran service 
organizations to reduce veterans' unemployment, provide 
retraining assistance benefits to 99,000 unemployed veterans; 
ensure the safety of veteran patients and VA employees by 
strengthening protections against sexual assault and other 
safety incidents at VA medical facilities; and conduct close 
oversight of VA's disability claims process, major and minor 
construction programs and mental health care system.
    Throughout these efforts and many more, DAV's support, 
advice, and encouragement have been invaluable. However, our 
work together has just begun.
    I would like to ask for your support in advancing a bill, 
H.R. 357, the GI Tuition Fairness Act of 2013, that I have 
introduced with Ranking Member Michaud. Anyone who has put a 
son or daughter through college is painfully aware of the 
rising costs of tuition, especially for out-of-state colleges 
and universities. Our student veterans are not immune to these 
increases.
    When someone joins the military, they do not swear to 
defend just their home state. They swear to defend all fifty 
states. This legislation would offer public colleges and 
universities a choice, either charge veterans in-state tuition 
rates or no longer be eligible to enroll student veterans under 
the GI Bill. It is time that public colleges and universities 
stop balancing their budgets on the backs of student veterans, 
and I am hopeful that you will join me in this effort.
    Another area where I know we agree concerns the importance 
of the advance appropriations process. Seemingly endless 
continuing resolutions and the near constant threat of Federal 
Government shutdowns appear to be new facts of life surrounding 
our budget process. In 2009, we instituted advance 
appropriations for three VA medical care accounts to protect 
the veterans' health care from being negatively impacted by 
Washington's budget stalemates.
    However, other VA accounts continue to be funded through 
the regular appropriations process and the log jam that all too 
often entails. We can't allow our veterans and the programs 
that serve their and your needs to be threatened when 
Washington can't do its job.
    Your written statement calls for Congress to extend the 
protection advance appropriation provided to these other 
accounts, and I am proud to announce here today that I have 
introduced legislation to make that happen.
    [Applause.]
    The Chairman. I want to thank my colleague, Ranking Member 
Michaud, for being an original cosponsor of that particular 
piece of legislation.
    This week in particular, with sequestration looming large 
in all of our hearts and our minds, illustrates the urgent need 
for such an action. Due to this Committee's persistent 
oversight, the administration has made it clear that VA is 
exempt from the automatic budget cuts set to take effect this 
Friday, and our veterans and their families can be assured that 
the health care and benefits provided to them through the VA 
will not suffer through sequestration. For that, I am grateful.
    [Applause].
    The Chairman. However, there could be no doubt that we find 
ourselves in a time of great difficulty with ongoing conflicts 
persisting across the world and undeniable calls for fiscal 
restraint here at home. In times like these, the work of 
organizations like the DAV has never been more important. There 
is great work ahead of us, and I am confident that there are 
great accomplishments ahead as well.
    Together, there is no challenge we can't meet on behalf of 
our veterans and I appreciate your attendance today. I now 
yield such time as he may consume to my friend and colleague 
from the Senate, Bernie Sanders, for his opening statement.

    [The prepared statement of Chairman Miller appears in the 
Appendix]

          OPENING STATEMENT OF SENATOR BERNARD SANDERS

    Senator Sanders: Mr. Chairman, thank you very much, not 
only for the work that you and your Committee have done, but 
for your correct assessment that in these difficult times we 
have got to rise above partisanship when it comes to taking 
care of our veterans.
    [Applause].
    Senator Sanders. And I would hope very much and I expect 
that our two Committees will achieve that goal.
    To the members of the DAV, I want to thank you not only for 
your service and sacrifice for our country, but also the 
enormously important work that your organization does. I use to 
be the mayor of a city, a larger city in the State of Vermont, 
and what I learned then and have not forgotten, that we can't 
do our jobs as public officials unless we hear from the people 
on the ground who are experiencing the problems. So I know I 
speak for Chairman Miller as well as myself. We want to hear 
from you. We need to hear from you. We cannot make the system 
work unless you tell us what is strong, what is weak, and what 
has to change. So we look forward to your participation.
    I also want to acknowledge the DAV members from Vermont who 
are here. We are a small state. We only have five who are here. 
I want to thank Bob Nicodemus, Aura-Lee Nicodemus, two people 
who have worked tirelessly on behalf of veterans of Vermont, 
Richard Bugby, Roberta Bugby, and department commander, Bob 
Pixley. Thank you for all that you are doing for the veterans 
of Vermont.
    I want to just touch on some of the issues that are out 
there. And before I begin, I think it is all so important to 
know while the VA certainly has its share of problems that 
Chairman Miller and I intend to address, we also have to 
acknowledge that the VA does many things well. For example, the 
VA has one of the highest reported rates of patient 
satisfaction in the country, and that is no small feat, and we 
owe that to the hundreds of thousands of dedicated VA nurses 
and doctors and staff members who every day go above the call 
of duty to reach out to their fellow brothers and sisters 
because many of the people staffing the VA are, in fact, 
veterans. So I want to thank all of the staffs at the VA for 
the excellent work that they are doing.
    Now, in terms of some of the problems out there, I think 
all of you are aware that may be at the very top of the list is 
the significant backlog that we have in terms of processing 
claims.
    Now, here is the good news and here is the bad news. What 
many Americans don't know is that the VA today is processing 
far more claims, about a million a year, than they use to. That 
is the good news. The bad news is, is that for a variety of 
reasons, some of them positive reasons, including telling 
Vietnam veterans who were exposed to Agent Orange to come on in 
and file their claims without getting 1.2 million claims a 
year. More are coming in than we are processing.
    Needless to say, it is unacceptable that veterans wait 
months and months and years and years to get those claims 
adjudicated. That is an issue that we have got to work on and 
that we have got to solve.
    [Applause].
    Senator Sanders. Second issue, and it is an emotional issue 
and a painful issue, and that is it is no secret to anybody in 
this room that the suicide rate for veterans is far, far too 
high. This is a painful issue. I don't think there is anybody 
who has a magical answer. I think some of it has to do with 
folks who are reaching--and many of these suicides are for 
older people, people who are reaching the age of 60, maybe they 
lost their job, maybe their income is limited, maybe they are 
isolated. But whatever the cause may be, it is a tragedy for 
our Nation.
    We have got to focus out on that issue. We have got to 
reach out to those especially who are isolated. We have got to 
bring them in to the system. People who have fought in these 
wars have suffered enough and we have got to do everything that 
we can to prevent more suicides.
    Tied into that issue is the very serious issue we are 
seeing lately from our returning veterans from Iraq and 
Afghanistan, dealing with PTSD, TBI, again a very difficult 
issue. A lot of our young returnees are facing this problem, 
and what we have got to understand is that PTSD and TBI are as 
much an injury as other types of injuries and those soldiers 
need to be respected and need to be treated as effectively as 
we possibly can.
    [Applause].
    Senator Sanders. Another issue, and I don't know about your 
states, but I can tell you that in the State of Vermont, we are 
not doing enough in terms of outreach. Now, not every veteran 
wants to come into the VA system and that is fair enough, but 
our job is to make sure that every veteran in America 
understands the benefits to which he or she is entitled and 
many of them don't, so we have got to do a better job in 
outreach and educating veterans to what they are entitled to.
    The military is changing. More and more women are in active 
duty. The VA is responding, but we have to do more in that 
regard. Women deserve the same high quality care that men do. 
We have got to work on that.
    [Applause].
    Senator Sanders. Last point. How many of you in this room 
know what a chain CPI is?
    See, everybody up here knows what a chain CPI is. We know, 
but most people in America don't know. So on TV tonight you are 
going to hear people talking about the need for entitlement 
reform for a chain CPI. What a chain CPI is a different way of 
configuring COLAs for Social Security and for disabled 
veterans.
    A chain CPI would make significant cuts for some 3 million 
disabled veterans as well as everybody on Social Security. Now, 
I feel very strongly that, A, the deficit situation is a 
serious problem. It has to be dealt with, but you don't deal 
with it on the backs of disabled veterans and widows who lost 
their husbands in Iraq and Afghanistan.
    [Applause].
    Senator Sanders. And I want to thank the DAV and the other 
services organizations for working with us in opposition to 
this proposal, so let me just conclude by thanking Chairman 
Miller for the good work that he is doing and look forward to 
working with him in the future to address some of the very 
serious problems facing our veterans community. Thank you very 
much.
    The Chairman. Thank you, Mr. Chairman.
    [Applause.]
    The Chairman. I would like to introduce the Acting Ranking 
Member today, Mr. Boozman from Arkansas.

           OPENING STATEMENT OF SENATOR JOHN BOOZMAN

    Senator Boozman. Thank you, Mr. Chairman.
    And again, I just want to greet all of you all, and then we 
can get to the testimony which we are all looking forward to.
    I want to thank you for being up here. This is a difficult 
trip for so many of you, but there is no replacement for being 
up here, talking to your congressman, your senator, looking him 
in the eye and explaining how important these things are. I 
look forward to visiting with a couple of our folks from 
Arkansas in a little bit, Ricky Young and David Spurgeon, our 
commander and legislative officer, and we are going to be 
talking about women's health issues and certification of active 
duty personnel, and just the variety of different issues which 
we all have become so well versed on.
    And again, like I said, we appreciate you being here and 
certainly this Committee, this Committee in a bipartisan way, 
is committed to helping veterans in any way that we can.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    [Applause].
    The Chairman. The Ranking Member in the House, my friend 
from Maine, Mr. Michaud.

           OPENING STATEMENT OF HON. MICHAEL MICHAUD

    Mr. Michaud. Thank you, very much, Mr. Chairman. Thank you 
for reaching across the aisle when I was elected as Ranking 
Member, to help get the minority office up and running. I 
appreciate your willingness to work together to solve the 
problems that our veterans and their family face.
    I want to congratulate Senator Sanders for his appointment 
as Chairman of the Senate Veterans' Affairs Committee. Both Mr. 
Sanders and Mr. Boozman came from the House, so I am sure they 
took their work ethics from the House over to the Senate, and 
hopefully we will get some work done as it relates to veterans. 
Mr. Sanders and I both come from the same VISN, VISN 1, and 
look forward to working with him as well.
    Commander, good afternoon, and we want to thank you and the 
members of the DAV, not only for your military service, but 
your continued service to our country as veterans' advocates. 
Our Nation has a ``sacred trust'' with all veterans, a national 
promise to care for and stand up for those who have served and 
sacrificed. You fulfill a vital role in the ``community of 
support'' America provides for our national heroes. I want to 
welcome those of you who came from Maine for this hearing and 
want to thank you for your strong advocacy for veterans in 
Maine and all across the country.
    Commander, I would like to extend my compliments to your 
DAV Washington staff. Their tireless advocacy on behalf of your 
members and all of our veterans help push important issues 
facing veterans and their families to the forefront of our 
national debate. Never has there been a time that I have called 
the DC staff, they didn't respond in a timely manner, so thanks 
to the DC staff as well.
    The Independent Budget produced by DAV and others continues 
to be invaluable as we consider the difficult budgetary and 
policy issues that confront us this year. It serves, as it has 
for the past 25 years, as an important voice on the issues and 
matters the most to you and a vital resource for us up here.
    As you know, the Administration has delayed the release of 
its Fiscal Year 2014 budget proposal. While VA programs are 
spared from the effects of sequestration, that does not mean 
that veterans will be left unaffected. Veterans could lose 
extended unemployment insurance as well as face cuts to the 
critical TAP program, just to name a few. In addition, all of 
our citizens will face the effects of sequestrations at the 
state and local levels as well.
    The VA is at a crossroads, and many important decisions 
will need to be made as we look towards the future. Working 
with you and with the VA, we will make sure that these choices 
are both fiscally responsible and in the best interest of 
veterans.
    I look forward to your testimony today. Thank you and your 
organization for the years of service that you have given to 
make sure that veterans issues and their family's issues are 
heard on the Hill. Thank you very much, Commander.
    Thank you, Mr. Chairman.

    [The prepared statement of Hon. Michael Michaud appears in 
the Appendix]

    The Chairman. Thanks, Mike.
    [Applause].
    The Chairman. Commander, I will waive introducing the head 
table if you choose to do so. It will be your prerogative, but 
in view of time and the length of our opening statements, we 
want to get to your opening statement.
    So I would like to introduce our colleague from California, 
Ms. Loretta Sanchez, to introduce a constituent of hers. You 
are now recognized.

           OPENING STATEMENT OF HON. LORETTA SANCHEZ

    Ms. Sanchez. Thank you, Mr. Chairman. And thank you, 
Chairman Sanders and to our Ranking Members and all of the 
Members who are here today. I hope that the Disabled American 
Veterans can see how important you really are when you have 
almost a complete Committee here, and for a hearing, that is 
really a statement to how much these colleagues of mine care 
about your issues.
    To the Disabled American Veterans, thank you all for your 
service. Thank you for being here. And it is a great piece of 
American democracy when you come here, in this particular case, 
in this caucus room which is the House side or the people's 
House of the United States Congress, of course joined by our 
senators. It is really great when you come to petition your 
government, so we are clearly really thrilled that you are all 
here today.
    I know that it is your annual mid-winter conference, that 
many of you have really put together your pennies to come here 
and, again, we appreciate that. And I hope you will be meeting 
with your Congress Members, that you will be talking to them 
about the priorities for our Disabled American Veterans.
    You know, I know that you represent over one million 
veterans in the country, and I know that your staff here in 
Washington, DC, do a great job especially when they are talking 
to the particular Members of this Committee. But even to say 
so, that they come to the other Members who don't sit on this 
Committee to talk about the issues that are important to your 
membership. So again, thank you.
    I just would like to say that we know that there are--we 
are facing many cuts here at the Federal level, and I do 
believe that most of my colleagues in the United States 
Congress really want to address and really want to put forward 
and really want to make sure that our commitment to our 
veterans is still there.
    So it is going to be a tough year. It is going to be a 
tough budget. My colleagues all know that. You hear that on 
television. You see that. It is going to become even more 
difficult as we draw down from Afghanistan and we see even more 
returning veterans come home.
    We have some great GI benefits. We have our great hospitals 
and our clinics. I am privy to have so many of them in the 
Southern California area. But still, it is not enough because 
what we see is that our veterans slip through the cracks, and 
if we don't get to them as soon as they come out, that somehow 
we lose them and we lose track of them, and to then to get them 
back, to get them back to the programs that are there to serve 
them is very, very difficult. So again, I know that you, along 
with a lot of the other organizations for our veterans, really 
do your work to get them in and to help them and to bring them 
forward.
    To do that, of course, it takes not only your organization 
and others like you, but we have a lot of corporations that are 
helping and making sure that our veterans are getting jobs, for 
example. I know the unions, for example, our national unions, 
our trade unions, are working very hard on apprenticeship 
programs. Our Secretary of Labor and our Secretary of Veterans 
Affairs have worked together to make sure that there are 
programs to bring our veterans back into civilian society.
    But today, today is really your day. Today is the day to 
tell us what you see in your membership and what we need to 
save here in Washington, DC, what we really need to do.
    And my colleagues, to do that, to start off the 
conversation for you today, I would like to introduce from my 
home state of California, Corporal--we really call him 
Commander now--Commander Larry Polzin.
    He is from Somar, California. He is a Vietnam era veteran, 
who served in the United States Marine Corps, and as my 
brother, a former marine. But as a marine would say, ``always a 
marine,'' right? I mean, you know, I am personally married to a 
man who spent 23 years in the United States Army, so he might, 
you know----
    [Laughter.]
    Ms. Sanchez. And sometimes when he doesn't hear me, I think 
he should be a member of the DAV.
    But Commander Polzin has been a DAV member since 1971. He 
is a life member of Chapter 73 in Woodland Hills, California. 
He was in the United States Marines until he was given 
disability retirement in 1966, and the commander is the 
national commander of DAV. I am honored to introduce him today. 
He will begin by presenting the DAV's legislative agenda, and 
before we do that--because I am a woman and I think behind 
every good man, there is a great woman--is his wife. If she 
would please stand up.
    [Applause.]
    Ms. Sanchez. So Commander, the floor is yours. And I will 
add that I do have Homeland Security going on in about the next 
hour. So if you see me slip out, it is not because I don't love 
you. Okay? It is because there are a lot of commitments here in 
Congress, but this one is truly important. Thank you, Mr. 
Chairman.
    The Chairman. Thank you very much, Ms. Sanchez, for your 
introduction. Commander, you had a whole lot of time, but she 
just ate most of it up.
    Sir, you are recognized for as much time as you need. Thank 
you for being with us.

 STATEMENT OF LARRY A. POLZIN, NATIONAL COMMANDER, ACCOMPANIED 
 BY GARRY J. AUGUSTINE, NATIONAL SERVICES DIRECTOR; JOSEPH A. 
 VIOLANTE, NATIONAL LEGISLATIVE DIRECTOR; BARRY A. JESINOSKI, 
EXECUTIVE DIRECTOR, WASHINGTON HEADQUARTERS; ARTHUR H. WILSON, 
    NATIONAL ADJUTANT; RON B. MINSTER, NATIONAL DIRECTOR OF 
VOLUNTARY SERVICE; DONNA M. ADAMS, NATIONAL COMMANDER, DISABLED 
                  AMERICAN VETERANS AUXILIARY

                  STATEMENT OF LARRY A. POLZIN

    Mr. Polzin. Thank you, Representative Sanchez. Chairmen 
Sanders and Miller, congratulations on your leadership 
appointments to your respective Committees.
    I also want to recognize Senator Murray who previously 
chaired the Senate Committee, and Ranking Members Senator Burr 
and Representative Michaud, and I want to thank all the Members 
of these Committees on behalf of the more than 1.4 million 
members of DAV and its auxiliary for the support you have given 
our Nation's injured and ill veterans and their families and 
survivors and the programs that have helped improve the quality 
of their lives.
    I wish you all the best in your efforts during 113th 
Congress on behalf of American veterans, their families and 
survivors. Please allow me to introduce those seated at the 
head table with me, as well as some of our distinguished 
guests: National Adjutant Art Wilson; Executive Directors Marc 
Burgess and Barry Jesinoski; Service Director Garry Augustine; 
Legislative Director Joe Violante; Volunteer Service Director 
Ron Minter; Auxiliary National Commander Donna Adams of 
Arizona; Auxiliary National Adjutant Judy Hezlep; DAV Senior 
Vice Commander Joe Johnston of Ohio; Junior Vice Commanders Ron 
Hope of North Carolina, Moses Macintosh of Georgia, David Riley 
or Alabama; National Judge Advocate Mike Dobmeier of North 
Dakota; and an immediate past National Commander Donald Samuels 
of Tennessee; Chaplain Ron Ringo; and my National Chief of 
Staff, Fred Bauer, both of California.
    Let me introduce my wife, Judy.
    [Applause.]
    Mr. Polzin. Will the DAV National Executive Committee 
please stand to be recognized?
    [Applause.]
    Mr. Polzin. Will the members of the National Legislative 
Interim Committee please stand.
    [Applause.]
    Mr. Polzin. I also would like to recognize the entire DAV 
delegation from my home state of California.
    [Applause.]
    Mr. Polzin. Mr. Chairmen and Members of the Veterans 
Affairs Committees, I am honored for this opportunity to 
discuss our major concerns and legislative agenda for the 
coming year. Since our founding in 1920, DAV has remained 
dedicated to fulfilling our promises to the men and women who 
served, their families and survivors. Part of our mission is 
advocating for meaningful, reasonable, and responsible public 
policy for injured and ill veterans of all generations.
    With the proposed downsizing of our military forces and the 
slow recovery in our domestic economy, more veterans will be 
relying upon the Department of Veterans Affairs for services 
and benefits for decades to come. We must ensure that the VA is 
prepared to handle such a large influx of veterans. However, 
based on my experiences with the VA, I am not yet confident 
that our government is fully prepared to fulfill its promise to 
our Nation's veterans.
    All of my adult life has been spent in service to my fellow 
veterans. In 1971 the company that hired me after I was 
discharged from the Marine Corps turned its back on me when I 
needed open heart surgery. While in a VA hospital, a DAV 
Department of California Service Officer helped me file a claim 
for benefits I had earned, and I became a member of DAV. Later, 
I was offered a job as a National Service Officer and it was an 
amazing chance to help my fellow veterans that has been my life 
ever since.
    [Applause.]
    Mr. Polzin. And while the President's fiscal year 2014 
budget proposal has yet to be presented, DAV and other veterans 
groups have recommended a $68.4 billion appropriation for the 
VA. Detailed recommendations for funding and policy priorities 
can be found in the Independent Budget.
    A major area of concern is that the VA is forced to operate 
at last year's levels under yet another continuing resolution. 
It also does not provide any advance appropriation for 
veterans' medical care for fiscal year 2014.
    Demand for veterans' health care and services has outpaced 
the resources allocated to the VA and with widespread reports 
of long waiting times for medical and mental health care, long 
delays for claims decisions and the still growing backlog, 
sufficient funding for vital programs and service is an 
absolute must.
    DAV members are deeply disturbed by the possibility of 
further delays in veterans disability compensation or lost 
access to VA health care. DAV believes delay means denial and 
we do not stand by and allow that to happen.
    [Applause.]
    Mr. Polzin. Mr. Chairmen, as a service-disabled veteran and 
a retired DAV national service officer, I have taken a great 
interest in the VA's disability compensation system. Of course, 
we are encouraged by the VA's effort to streamline and 
modernize the claims process. And we are convinced that the 
Veterans Benefits Administration is headed in the right 
direction.
    Eliminating the backlog will be a welcome milestone. 
However, to achieve real success, the VA must focus on creating 
a benefit system that gets each claim done right the first 
time.
    [Applause.]
    Mr. Polzin. Only when the VA has adopted a culture of 
quality, accuracy, and accountability, will true reform in the 
claims process succeed.
    DAV looks forward to the complete rollout of the veterans 
benefit management system later this year. That and the 
continued development of eBenefits and the other technology 
improvements show great promise for better serving veterans.
    Mr. Chairmen, we are pleased that the veterans 
organizations have played an important role in developing or 
refining a number of new initiatives being deployed. And we 
look forward to continued process.
    Just last week, DAV became the first veteran service 
organization to file a claim through the VA's Stakeholders 
Enterprise Portal.
    [Applause.]
    Mr. Polzin. I am pleased to report to the Members of these 
Committees that the American Veterans Disabled for Life 
Memorial Project has cleared the last major hurdle and is on 
track to be completed and dedicated in October 2014. I hope to 
see that you will be able to attend.
    [Applause.]
    Mr. Polzin. I now turn to a topic that fills me with great 
pride, the dedication of DAV members. I will summarize some of 
our work.
    Veterans making the transition back to civilian life must 
overcome many obstacles and DAV provides programs that address 
their overall health and well-being.
    Beyond helping hundreds of thousands of veterans each year 
access their government benefits, we fund rehabilitation and 
counseling programs, link veterans to job training programs, 
and work to address homelessness. All DAV services are free.
    American's veterans, more than any other group, have lived 
up to their responsibility by putting their lives on the line 
in defense of our country. We are willing to sacrifice for the 
good of our Nation as long as that sacrifice is shared by all. 
No one knows more about sacrifice than those who were wounded 
or injured serving in our Nation's military forces and their 
loved ones.
    Everyone before you today knows DAV well, because 
collectively with our 1.2 million members, we are DAV. These 
men and women are vital to our mission and the well-being of 
our Nation's injured and ill veterans. They represent some of 
the almost 14,000 DAV and auxiliary members who volunteer their 
time to assist America's wounded, injured, and ill veterans.
    In 2012, they provided more than two million hours of 
essential service to our Nation's veterans.
    Some of them are volunteer drivers with the DAV 
Transportation Network, which provides free transportation to 
veterans in every state and nearly every congressional 
district.
    In 2013, we plan to donate 110 vans to VA Medical Centers. 
From 1987 to 2012 we have donated 2,586 vans at cost to the DAV 
of nearly $57 million.
    [Applause.]
    Mr. Polzin. Last year our more than 9,000 volunteer drivers 
logged more than 27 million road miles transporting nearly 
800,000 veterans to and from their medical appointments.
    [Applause.]
    Mr. Polzin. DAV also extends our commitment to the families 
and survivors of those killed in the line of duty and our most 
severely affected veterans.
    We recognize that children have their own unique needs. 
That is why the DAV and our auxiliary have launched a new 
``Just B Kids'' scholarship program that enables children 
facing hardship at home to spend a week enjoying the great 
outdoors.
    This new program, funded in part by a grant from the DAV 
Charitable Service Trust, means those children can attend the 
highly acclaimed Camp Corral. The week-long camping experience 
is operated through the generous efforts of a long-time DAV 
partner, Golden Corral.
    [Applause.]
    Mr. Polzin. Mr. Chairmen, we also are proud of our National 
Service Program, which is second to none.
    Each year, our National Service Officers, all of whom are 
wartime service-disabled veterans, represent more than 300,000 
individuals with their claims for benefits from the VA. DAV 
helps by far the largest number of claimants annually, ensuring 
that they receive all of the benefits they have earned through 
their service and sacrifice.
    Our highly trained and dedicated NSOs provide free 
representation to any veteran or their dependents and 
survivors. And I would encourage you to put the veterans in 
your district in touch with a DAV National Service Officer when 
they seek assistance with their benefits.
    [Applause.]
    Mr. Polzin. As you can imagine, I am extremely proud of the 
work we do. No other veteran service organization contributes 
more to the well-being of our Nation's veterans than DAV. We 
understand their needs because we are an organization of 
veterans helping veterans.
    For almost a century, we have a proven track record of 
helping hundreds of thousands of veterans each year. And we are 
standing up for veterans because they stood up for us.
    [Applause.]
    Mr. Polzin. I assure you DAV stands ready to assist you and 
your Committees in finding ways to improve the services and 
benefits that veterans have earned from a grateful Nation.
    Mr. Chairmen, this completes my remarks, and my staff and I 
would be pleased to respond to any questions you may have.
    Thank you for allowing me this opportunity to appear before 
you on behalf of DAV to share our proud record of service to 
veterans and our country.
    God bless America's soldiers, sailors, airmen, 
coastguardsmen, and marines who are in harm's way, and may God 
bless the United States of America. Thank you.
    [Applause.]

    [The prepared statement of Larry A. Polzin appears in the 
Appendix]

    The Chairman. Outstanding, Commander. Thank you very much 
for your comments.
    We have some votes coming up in just a few minutes so I am 
going to ask just one question and then probably we will submit 
some more to the DAV for response.
    In your written statement, you talked about believing that 
the backlog is simply a symptom, not really the root cause of 
VA's claims processing problems.
    I want to know a little more in detail, if you can, about 
the fundamental reforms that you think are needed to address 
the problem.
    I agree and I have said it many times that, VBMS will not 
be the silver bullet, if you will, to solve the problem. That 
is just a tool in the arsenal. I think that one of the things 
that VA really needs to focus on is the fact that there are 
some folks in the system that probably don't need to be there 
and we need to find a way to move them out. It is not easy.
    [Applause.]
    The Chairman. It is not easy, it is going to take 
leadership, and it is going to take a little initiative on VA's 
part, but there are plenty of people out there that will come 
in and fill those positions to help. My concern is once a 
person knows that the only punishment that they may get is to 
be transferred to another region or another office, that is not 
much of a punishment at all when we have almost a million 
backlog claims.
    So I would like to know a little more about what DAV thinks 
can be done, and we will continue to be reaching out to you as 
well.
    Mr. Polzin. Thank you.
    Yes, we believe the VA is moving in the right direction; 
however, to achieve real success, the VA must focus on creating 
a benefit system that gets each claim done right the first 
time. And only when the VA has adopted a culture of quality, 
accuracy, and accountability will true reform in the claims 
process be achieved.
    [Applause.]
    The Chairman. Senator Sanders.
    Senator Sanders. Thank you very much, Mr. Chairman.
    Commander, I wonder if you could comment on the outreach 
efforts of the VA. In your judgment, do veterans all over the 
country actually know the benefits that they are entitled to? 
How to access health care? Or do we need to do a better job in 
educating veterans to the programs and benefits to which they 
are entitled?
    Mr. Polzin. I feel the answer to your question is yes.
    Senator Sanders. Did you want to add anything to that or 
are you in----
    Mr. Polzin. I will----
    Senator Sanders. Okay. Thank you very much.
    The Chairman. Dr. Roe.
    Mr. Roe. I thank the Chairman for yielding, and just a 
couple things very quickly.
    First of all, I want to recognize this empty chair here, 
POW MIA, those men and women who never have a chance to access 
any veteran services nor do the KIAs.
    [Applause.]
    Mr. Roe. Tennessee veterans very quickly hold your hand up 
so I can recognize you here. If there are any from Tennessee 
here.
    I would like to ask a couple of questions. Thank you. 
Commander, a couple things. The claims backlog. Obviously one 
veteran service officer, Jerry Rivers brought to my attention 
today was in the case of a disabled veteran dying, their spouse 
sometimes even when everything is filled out correctly, can be 
up with a year without getting their benefit.
    That has to stop. That is something that is so egregious 
and I didn't know that, and probably none of the Committee 
Members know that, that if that veteran dies that spouse may 
wait a year with a completely clean claim.
    Have you had that brought up by your membership?
    Mr. Polzin. Yes. Barry, would you like to----
    Mr. Jesinoski. I will take that question. Thank you. 
Absolutely.
    First of all the backlog and the question you ask goes hand 
in hand obviously, and not until we get the backlog tamed, if 
you will, until the VA gets it tamed, are we going to really 
see the kind of progress that we need to with DIC claims as 
well. Although we do believe that certainly DIC claims should 
be fast tracked.
    And a note about the backlog. It has been created through 
years of neglect, until recently any way, and years of neglect 
in VBA funding, training, personnel, and accountability, in 
addition to the outdated processing systems and methods.
    On a good note, sort of, coupled with greatly improved 
outreach efforts in answer to Chairman Sanders' question, the 
VA's outreach efforts have improved greatly over the last few 
years and they are getting better.
    But despite the horrendous claims backlog, Secretary 
Shinseki and the Under Secretary Hickey are moving in the right 
direction with the VBA transformation efforts and specifically 
with VBMS. Their efforts are quite frankly unprecedented and 
very refreshing, and we are very optimistic that the rating 
accuracy and the timeliness will improve greatly over the next 
couple of years, and that goes for all claims to include DIC 
claims.
    Record numbers of claims have been completed in the last 
few years yet even more claims have come in.
    But again, with more claims coming, this is more proof that 
outreach is getting better.
    And we believe this is very important for us. We believe 
without question that should the current transformation effort 
and/or the VBMS progress be sidelined, that the results will be 
disastrous. The results will add exponentially to the backlog 
and cost hundreds of millions of dollars.
    So we ask Congress to be supportive of VBA's transformation 
efforts and to be patient honestly.
    Mr. Roe. Thank you for that. I am going to yield back.
    One other thing, just a statement and later, because I want 
some other folks to have a chance. Have you all noticed any 
delay in surgery? I know in the VA it is not the quality of 
care but the delay in care.
    One of the things, I know of some orthopedic surgeons who 
tell me there is a six-month to three-year wait for a hip 
replacement. That is unacceptable. And I mean, I have had the 
surgeons tell me that.
    So I will yield back my time, and I appreciate the 
opportunity to be here today with you all and thank you for 
your service.
    [Applause.]
    The Chairman. Mr. Michaud.
    Mr. Michaud. Thank you, Mr. Chairman.
    I have two quick questions. I know your national service 
organization have been doing a great job with the claims, the 
VBMS have set up different lanes, they have a fast lane to deal 
with claims easier.
    Do you think that that is a process where your national 
service folks could, actually whatever they submit, VA accepts 
and do an audit just on that portion of it or a portion of that 
fast claim?
    My second question is, as we heard earlier the suicide rate 
number has gone up, 22 a day is the baseline, it is actually a 
lot more than that.
    We heard from Linda Schwartz from Connecticut a couple 
weeks ago before the Veterans' Affairs Committee on how the VA 
should do more with community providers in different states and 
particularly as it relates to the mental health issue. Do you 
agree that the VA should be doing more in the communities in 
the rural areas or other state?
    Mr. Augustine. Thank you.
    I believe in your first question regarding the segmented 
lanes is what they are referred to, and we do feel there is 
benefit in having different types of rating adjudication lanes 
for different types of cases.
    In conjunction with the segmented lanes, the VA is doing 
something called fully developed claims. If we can bring a 
claim to them that has all the evidence that is ready to rate, 
it can be put in the first lane, which is an expedited lane, 
and they can take a look at the evidence of record and do a 
rating.
    I think it is important to note that every time the VA 
orders a VA exam, because they need to look at the claim and 
have it looked at by the VA doctor, it can add 40 to 60 days to 
the timeframe.
    So any time that a claim can be expedited by rating on the 
evidence of record and for simple claims to go through the 
expedited process is a benefit to all. The VA, to the claimant, 
and it gets the claim adjudicated quickly, it gets money in the 
veteran's pocket to be able to take care of his personal needs 
and also medical benefits right away.
    Mr. Violante. I will answer the question on the suicide.
    Certainly they need to be able to identify those cases much 
quicker than they are now, and when those individuals come to 
light, VA or DoD needs to do whatever it takes to ensure that 
they get that care immediately. Because the problem is not 
getting them the care immediately and the suicides are 
increasing.
    So identifying them as risks, and then once they are 
identified, getting them the care they need, wherever that care 
may be, is what needs to be done.
    The Chairman. Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman, and Commander Polzin 
and all of the leadership team with you today thank you. For 
everyone in the room thank you for your service and for your 
veterans brothers and sisters all over this country.
    Those of you from Texas wave your flags so we know how many 
we have got. Got a few of them, great. Thank you for being here 
today.
    I wanted to ask you if you could tell us what experience do 
you have with the TAP program so far and what is your initial 
feedback and what suggestions for improvement would you offer 
to us?
    Mr. Jesinoski. Thank you for the question.
    First of all, DAV has been involved in various forms of 
TAP, BDD, Quick Start, all these types of initiatives for many, 
many, years and so we have a unique perspective on those 
overall programs.
    First of all, we are extremely appreciative of the efforts 
of these Committees and the leadership shown with the Veterans 
Employment Initiative passed not too long ago.
    We are a little concerned and have been concerned about the 
level of cooperation between VA and DoD in regards to the new 
TAP program, and frankly, we don't believe that the problem is 
on the VA side.
    Mr. Flores. Thank you. And I will yield back the remainder 
of my time.
    The Chairman. Thank you. Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman, and thank you 
all for being here.
    You know, I wish you could sit where we are and see this 
picture. There is an old saying, a picture is worth a thousand 
words, and let me tell you, this picture is a very powerful 
statement about keeping faith and leaving no veteran behind. 
Thank you very much all of you for being here today.
    [Applause.]
    Senator Blumenthal. I want to ask just one question. Thank 
you, Mr. Chairman, for giving me this opportunity to ask a 
question.
    I think you focus very powerfully and eloquently on the 
issue of mental health and particularly the invisible wounds, 
such as post-traumatic stress or traumatic brain injury whether 
it is Vietnam veterans or Afghanistan veterans or Iraq war 
veterans.
    Can you perhaps reflect a little bit on how we could 
encourage veterans to seek these services when they need them, 
given the stigma that some attach to them, unfairly and 
inappropriately. How can we encourage these wounded warriors to 
come forward and seek the services they need and deserve?
    Mr. Violante. It is interesting because it is difficult to 
get over that stigma. And again, identifying these individuals 
early on is important. Sometimes they don't recognize they have 
problems, it is family members and friends that recognize those 
problems. And educating the family as to what to look for is 
the first thing.
    DAV does a lot of outreach, we try to get the information 
out there, we try to encourage people that we come across 
during our services to them to seek the care that is necessary.
    But again, identifying individuals up front and encouraging 
them to get help is important. It is not always easy, but it is 
something that we continually strive to do.
    Senator Blumenthal. Thank you for your work in this area, 
and if there is anything perhaps our Committees can do to 
support that educational campaign, broaden it, extend it, 
expand it, I hope you will let us know.
    Thank you, Mr. Chairman.
    [Applause.]
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    My father was a retired army master sergeant, half of his 
career was infantry and half of his career was in medicine. I 
tried to follow his footsteps in the army and later transferred 
to the Marine Corps, which my late father has never forgiven me 
for.
    But in 1969, I volunteered at Fitzsimons Army Medical 
Center in Aurora, Colorado where my father retired from on his 
last assignment. We moved outside the post. And I can remember 
all the casualties coming in from Vietnam, most of them were 
amputees from mines and booby traps in the jungles of Vietnam, 
and the mood was very dark among those veterans. I mean, that 
as the country became more and more divided about the war in 
Vietnam they also became more divided about their support for 
those who fought in the war.
    And for those who fought in Vietnam, I want to say 
something that Americans didn't say when you came home and that 
is welcome home.
    [Applause.]
    Mr. Coffman. And I just want to say as a first Gulf War 
veteran, as a Iraq war veteran, I just want to make sure that 
the men and women that return home from Afghanistan and who 
have returned home from Iraq are never treated like those who 
came home from Vietnam. That should never happen again in this 
country.
    Let me just ask you a question about, obviously we are 
concerned about the rise in suicides among not just the active 
duty population but also among our veterans. How helpful has 
the suicide hotlines that are operated by the Veterans 
Administration been? Can anybody answer that question?
    Mr. Violante. We get mixed reviews on that. In some cases 
it saves lives, and in other cases it seems that some men and 
women are falling through the cracks. It is not consistent, and 
hopefully something can be done to ensure that no one falls 
through the cracks and no one takes their lives when they have 
reached out for that help.
    But, you know, I can't say one way or the other that it has 
been consistently helpful. There are cases where it hasn't had 
its desired results.
    Mr. Coffman. Thank you.
    Well, I just want to close with saying that my experience 
on this Committee, it is my first year on the House Veterans' 
Committee, is that in a bipartisan way that the Members of this 
Committee are dedicated to the proposition that those who 
fought in defense of our freedom must be afforded the benefits 
and the health care that they have earned. And God bless all of 
you for your service.
    [Applause.]
    The Chairman. Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chair.
    And I too, sitting up here as Mr. Blumenthal said, a 
picture is worth a thousand words. I actually tack a picture so 
I can take it home to my district.
    But I want to also thank all of you and your families for 
your service and for your sacrifice and for all of you for your 
continued service for all of the vets and their families for 
today and the future. It is so appreciated by all of us and our 
country.
    And I want to thank you, Commander, for your testimony 
today. And you mentioned the importance of budget oversight in 
your written testimony, I don't believe you mentioned it here 
this afternoon. But specifically you talked about the advanced 
appropriations process and the GAO reporting requirement.
    As you know, the reporting requirement sunsets this year 
and as a consequence, I introduced legislation, H.R. 806 to 
continue that GAO reporting requirement in the future.
    And so my question today is what are the DAV's views on 
continuing that reporting requirement? How is the GAO report 
used by the VSO and others when evaluating VA health care 
funding? And finally, would you say that the GAO report is an 
important component of insuring that VA health care is 
adequately funded to meet the needs of veterans seeking that 
care?
    Mr. Violante. Thank you Congresswoman and thank you for 
introducing the legislation.
    When we were working on the issue, we came to realize that 
VA's model for determining the costs for medical care was an 
excellent model and we believed in the model. Unfortunately, we 
were concerned about numbers that went in or numbers that came 
out or what OMB might do with those numbers that they didn't 
like.
    And so one of the things we wanted to see was the GAO 
report, for them to look at what happened with the modeling and 
how that was handled.
    And unfortunately what we saw in the initial reports was 
just as we thought, that OMB tinkered with those numbers.
    So we believe that continuing to look at what VA is doing 
or what the administration is doing with those numbers is an 
important element.
    We would also like to see GAO dig a little deeper into what 
is going on with the process. Because all we are looking for, 
all we are interested in, is getting VA the money that it needs 
to care for the men and women that are coming to them for their 
services. We don't want more, we don't want less, all we want 
is the correct numbers to ensure that the men and women have 
the proper access and the quality health care that they 
deserve, and we believe that this GAO report is an important 
part of that.
    The Chairman. Mr. Wenstrup.
    Mr. Wenstrup. Thank you, Mr. Chairman, and thank you all 
for being here today.
    I have to say that you are the absolute model of service 
above self, and your giving on behalf of others with your time 
and all of your efforts.
    And as a physician and surgeon in the army reserve who has 
served in Iraq and who has seen the visible wounds as well as 
the invisible wounds, I shutter to think how many people would 
go without any care at all if it weren't for your work.
    I have no questions for you, I just want to say thank you 
very much.
    [Applause.]
    The Chairman. Mr. O'Rourke?
    Mr. O'Rourke. I would also like to begin by thanking you 
for your service and then I have a specific question to the 
disability claims backlog.
    As we know in 2009 it was 300,000, since then we've added 
thousands of additional claims processors and thousands of 
additional employees to the VA system and now that backlog 
stands at over 900,000.
    And I understand there are new systems to be implemented 
and I understand that some additional patience is in order, but 
the more than 80,000 veterans that I represent in the El Paso 
area in far west Texas have grown very frustrated, very 
understandably so.
    And so my question to you is your comments or feedback on 
an idea that has been raised in this Committee before, which is 
that we accept disability claims on their face much the way we 
accept IRS tax returns and blind audit a certain percentage of 
them. And the logic seems simple and fair enough to me. If we 
trust you to put your life on the line in service to this 
country, when you come back and ask us for our assistance and 
for the benefits that you are owed and have earned, we should 
be very effective and responsive in returning those to you.
    So I would like to get your comments on that, Commander.
    Mr. Violante. Thank you.
    We have concerns with that type of approach, only because 
unlike the IRS that knows how much I make, a claim for 
disability, go from 10 percent to 100 percentage and multiple 
disabilities combined. It is a difficult process to treat it 
like the IRS.
    What we would like to see is what VA is doing now and what 
Mr. Augustine talked about earlier, and they have these lanes 
now and hopefully we can get those claims that are easy into 
the fast track, those that are fully developed into another 
fast track.
    We believe there are other ways to deal with it that are 
easier to handle than the IRS model.
    Mr. O'Rourke. Thank you, I yield back.
    The Chairman. Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman, I am going to be very, 
very quick.
    As a veteran myself and full disclosure, I am also a 
marine, so all the army folks can boo.
    You know, I don't have a question, but all I want to say to 
you is right now we have a collective band of warriors right 
now, and your job is to make sure that you take care of those 
people who are your fellow warriors. That person on your right 
flank, that person who went into combat with you that served 
with you, and pressure us and other politicians to make sure 
they are never forgotten. You are going to be the vanguard, you 
are going to cross the line at departure, so carry out the 
battle warriors. And thank you for being here and carrying on 
the fight.
    [Applause.]
    The Chairman. Command Sergeant Major, Mr. Walz.
    Mr. Walz. Well, thank you, Mr. Chairman. Mr. Commander, Ms. 
Adams thank you.
    To the Minnesotans that are here, that is what happens to 
snow when it gets warm, that is going on outside just so you 
know. So it does happen once in a while.
    I also noticed one of your constituents raised their hand, 
former national past commander Jim Sursely. We claim him as a 
Minnesotan, but like most of my constituents they end up yours 
when they get older, so Jim, good to see you.
    I too have nothing to add other than my thanks. I would say 
this, that everyone of you, myself included, you remember when 
you took that oath of office and when you reenlisted. We take 
the same one, duty, honor, country. Nowhere in there says 
party, nowhere in there says bickering, nowhere in there is the 
idea that one side wins. We know what happens there. When only 
one side wins when we are up here, the American people lose, 
and I think it is really, really important the policies you are 
putting in place are well thought out. We need to get them 
through, but I think the biggest thing you do when you come 
here is demand that we conduct ourselves in a manner that is 
reflective of those who gave so much to allow us to self-
govern. Anything less than that is a stain on the spirit of 
what they did, and I think that is the important thing that you 
can continue to push for. We will get the policies right. You 
got great leadership up here, you have got a great leader 
sitting right there, and we can continue to do what is right.
    Thanks for being here.
    [Applause.]
    The Chairman. Mr. Denham.
    Mr. Denham. I will be very brief as well. Just two quick 
questions that can be answered later.
    First of all, the veterans' disability for life memorial 
what the current status of that is.
    And then secondly, a number of us have visited different 
facilities around the world looking at the opportunity to get 
the Department of Defense to actually get full certification of 
a disability before members leave active duty so they don't end 
up in the backlog as soon as they get home.
    And would ask not only for your comment on that, but your 
suggestions on how we can immediately get that fixed.
    If you have been injured on active duty there should be no 
question, that disability should be quantified immediately 
before you leave active duty and we have no reason to see any 
further hold ups on that.
    And with that I am a Gulf War veteran myself, had many 
family members injured in battle, and I am here fighting with 
you.
    Thank you.
    [Applause.]
    The Chairman. Thank you, Mr. Denham.
    Ladies and gentlemen, we have 30 seconds for House Members 
to get to the floor for a vote so we are going to be moving 
rather quickly as we depart, but I want to thank everybody for 
coming today, thank you, sir, for your testimony, we certainly 
appreciate you and your Washington staff.
    And particularly, I want to ask unanimous consent that all 
Members would have five legislative days with which to revise 
and extend their remarks and include any extraneous material. 
Without objection so ordered.
    With that this hearing is adjourned.
    [Applause.]

    [Whereupon, at 3:18 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

               Prepared Statement of Chairman Jeff Miller

    The Committee will come to order.
    Good afternoon.
    It is my privilege to welcome you to today's joint hearing of the 
house and senate Veterans' Affairs Committees to receive the 
legislative priorities of the Disabled American Veterans (DAV).
    Before we get started, we have one small bit of housekeeping.
    In the interest of time and in keeping with the tradition of these 
hearings, after hearing from myself, Chairman Sanders, Ranking Member 
Michaud [me-show], and Ranking Member Burr, I would like to ask all 
other Committee Members to waive their opening statements.
    There will be an opportunity for remarks following today's 
testimony.
    Hearing no objection, so ordered.
    It is a true honor for me to be here this afternoon with so many 
DAV members.
    Each of you sacrificed selflessly in service to our country in 
uniform and each of you continue to sacrifice selflessly out of uniform 
through your work in the DAV.
    On behalf of a grateful Nation, thank you all for your time this 
afternoon, for the many charitable endeavors you undertake through the 
DAV, and for your brave and honorable service to our Nation.
    I want to extend a special welcome to your national commander, Mr. 
Larry A. Polzin [poll-zin], a service-connected, vietnam-era veteran 
and a career DAV employee.
    Sir, thank you for your years of service, for your leadership, and 
for your attendance today.
    I also want to welcome Ms. Donna M. Adams, the National Commander 
of the DAV auxiliary.
    Ma'am, thank you for being here and for all of the good work that 
the auxiliary does for our veterans.
    Finally, I would like to recognize the DAV members from my home 
state of Florida who are in our audience today.
    Each of you is a credit to our community and I am proud to have you 
here in our Nation's capitol.
    On behalf of all our neighbors in the sunshine state, I thank you 
for your service and your sacrifice.
    As I mentioned earlier, we are also joined here today by Chairman 
Sanders, Ranking Member Michaud [me-show], and Ranking Member Burr as 
well as Committee Members from both the house and the senate.
    I want to extend an especially warm welcome to my friend and 
colleague from Vermont, Bernie Sanders, who joins us today as the new 
Chairman of the Senate Veterans' Affairs Committee.
    Sir, I am glad to have you here and I look forward to working very 
closely with you to support our veterans and improve the health care 
and benefits provided to them through the department of veterans 
affairs.
    Commander Polzin [poll-zin], our work begins with your testimony 
today and, after reading your written statement, there can be no doubt 
that you have much to be proud of.
    Due to the hard work and dedication of DAV's one point four million 
members, veterans are provided with professional benefits counseling 
and claims assistance; transportation to and from VA health care 
facilities; transition assistance services; and on-site care at 
military treatment facilities, at VA medical centers and clinics, and 
at home.
    That is just to name a few of the many programs and services DAV 
provides each day.
    I have witnessed many of these efforts firsthand and am personally 
grateful to each of you for the hard work DAV does across the country.
    I am also grateful for the hard work DAV does right here in 
Washington.
    In my two years as Chairman - hand-in hand with DAV and our other 
veterans service organization (VSO) partners - we have:
    - reduced veteran unemployment and provided retraining assistance 
benefits to ninety-nine thousand unemployed veterans;
    - ensured the safety of veteran patients and VA employees by 
strengthening protections against sexual assault and other safety 
incidents at VA medical facilities; and,
    - conducted close oversight of VA's disability claims process, 
major and minor construction programs, and mental health care system.
    Throughout these efforts and many more, DAV's support, advice, and 
encouragement have been invaluable.
    However, our work together has just begun.
    I would like to ask for your support in advancing a bill - H.R. 
357, the GI bill Tuition Fairness Act of 2013 - that I have introduced 
with Ranking Member Michaud [me-show].
    Anyone who has put a son or daughter through college is painfully 
aware of the rising cost of tuition, especially for out-of-state 
colleges and universities.
    Our student veterans are not immune to these increases.
    When someone joins the military, they do not swear to defend their 
home state; they swear to defend all fifty states.
    This legislation would offer public colleges and universities a 
choice: either charge veterans in-state tuition rates or no longer be 
eligible to enroll student veterans under the GI bill.
    It is time that public colleges and universities stop balancing 
their budgets on the backs of student veterans and I am hopeful that 
you will join in this effort.
    Another area where I know we agree concerns the importance of the 
advance appropriation process.
    Seemingly endless continuing resolutions and the near-constant 
threat of government shutdown appear to be new facts of life 
surrounding our budget process.
    In 2009, we instituted advance appropriation for three VA medical 
care accounts to protect our veterans' health care from being 
negatively impacted by Washington's budget stalemates.
    However, other VA accounts continue to be funded through the 
regular appropriations process and the logjam that all-too-often 
entails.
    We cannot allow our veterans and the programs that serve their 
needs to be threatened when Washington can't do its job.
    Your written statement calls for congress to extend the protection 
advance appropriation provides to these other accounts and I am proud 
to announce here today that I have introduced legislation to make that 
happen.
    This week, in particular - with sequestration looming large in all 
of our hearts and minds - illustrates the urgent need for this action.
    Due to this Committee's persistent oversight, the administration 
has made it clear that VA is exempt from the automatic budget cuts set 
to take effect this Friday and our veterans and their families can be 
assured that the health care and benefits provided to them through VA 
will not suffer through sequestration.
    For that, I am grateful.
    However, there can be no doubt that we find ourselves in a time of 
great difficulty, with ongoing conflicts persisting across the world 
and undeniable calls for fiscal restraint here at home.
    In times like these, the work of organizations like DAV has never 
been more important.
    There is great work ahead of us and I am confident that there are 
great accomplishments as well.
    Together, there is no challenge we can't meet on behalf of our 
veterans.
    Thank you all once again.

                                 <F-dash>
             Prepared Statement of Hon. Michael H. Michaud

    Good afternoon, and welcome Commander Polzin. We thank you and the 
membership of DAV for not only your military service, but your 
continued service to our country as veteran advocates. Our Nation has a 
``sacred trust'' with all veterans - a national promise to care for and 
stand up for those who have served and sacrificed. You fulfill a vital 
role in the ``community of support'' America provides its national 
heroes.
    I want to welcome those of you in the audience who are here from 
Maine. I see several familiar faces - it's great to see you all.
    Commander, I would like to extend my compliments to your DAV 
Washington staff. Their tireless advocacy on behalf of your members and 
all of our veterans helps push important issues facing veterans and 
their families to forefront of our national debate.
    The Independent Budget produced by DAV and others continues to be 
invaluable--as we consider the difficult budgetary and policy issues 
that confront us this year. It serves, as it has for the past 25 years, 
as an important voice on the issues that matter the most to you, and a 
vital resource for us up here.
    As you know, the Administration has delayed the release of its 
FY2014 budget proposal. While VA programs are spared from the effects 
of sequestration, that does not mean that veterans will be left 
unaffected. Veterans could lose extended unemployment insurance as well 
as face cuts to the critical Transition Assistance Program (TAP) to 
name just a few.
    In addition, all of our citizens will face the effects of 
sequestration in their States and localities.
    The VA is at a crossroads, and many important decisions will need 
to be made as we look toward the future. Working with you, and the VA, 
we will make sure that these choices are both fiscally responsible and 
in the best interest of veterans.
    I look forward to your testimony today, and again thank you for 
your organization's years of service to our veterans.

                                 <F-dash>
                 Prepared Statement of Larry A. Polzin

    Messrs. Chairmen and Members of the Committees on Veterans' 
Affairs:
    It is indeed an honor and a privilege to appear before you today to 
present the legislative and policy agenda of DAV (Disabled American 
Veterans) for the coming year. At the outset, I want to welcome the 
many new Members of Congress, and to thank all the returning Members of 
these Committees on behalf of the more than 1.4 million members of DAV 
and our valued Auxiliary for the support you have given wounded, 
injured and ill veterans and their families and survivors.
    DAV also wants to recognize our former Senate Committee Chairwoman 
Murray for her Committee leadership and her devotion to veterans' care. 
From her advocacy in improving mental health, to meeting the needs of 
the severely disabled and their family caregivers, to addressing the 
deficits in programs of care for women veterans, to maintaining the 
adequacy of VA's budget and overseeing VA's work, Chairwoman Murray 
applied a steady hand while accomplishing her goals and achieving the 
national goals of DAV. Although we will miss her leadership as our 
Chairwoman, we are very pleased that Senator Murray will remain an 
active Member of this important Senate committee as she takes the reins 
as Chairwoman of the Budget Committee. We at DAV want Senator Murray to 
know the high esteem in which we hold her and the work she did in this 
leadership position.
    We also welcome Senator Sanders to the Chairmanship. He has been a 
valuable Member of the Committee since his election to the Senate, and 
we are confident Chairman Sanders will continue the record of service 
and support for America's wounded, injured and ill veterans, along with 
the return of Ranking Member Senator Burr. DAV also welcomes back 
Chairman Miller to his leadership position on the House Veterans 
Committee. Congratulations go out to Ranking Member Michaud on his 
election to his leadership position.
    We believe that the interests of veterans will be well protected 
with the dedicated leadership on these Committees.
    On a personal note, I want to let the Committees know at the outset 
that I am a service-connected, Vietnam-era veteran of the United States 
Marine Corps. I was assigned to the 1st Engineering Battalion, 1st 
Marine Division.
    Messrs. Chairmen, my friend Don Samuels, my immediate predecessor 
as National Commander and I share an experience that most other DAV 
National Commanders do not: following our own military service we both 
became career DAV employees, and we both retired from those full-time 
jobs. Working as a National Service Officer (NSO) I represented or 
supervised others representing tens of thousands of veterans before the 
government to ensure their rights and benefits were protected. I 
personally spent 25 rewarding years working for DAV in this capacity, 
and similar to immediate Past Commander Samuels, only after that time 
did I began working on the fraternal side of this great organization. 
Following my retirement from the DAV professional staff I became active 
in the California Department of DAV, serving in several line positions 
including my election as Commander, Department of California, in 1996. 
I have also been privileged to serve with others at the national level 
of DAV as a member of our National Executive Committee, and I have 
played additional roles on other key DAV committees at the department 
and national levels.
    As an NSO I saw DAV from the inside-out, and as a National 
Commander I have helped shepherd DAV's work from the outside-in. DAV is 
not only a sentinel to ensure veterans' needs are respected and 
protected, but DAV maintains its primary focus on service, a mission we 
hold very dear. In this time of federal deficits and national debt, DAV 
is able to accomplish a very optimistic mission while not relying on 
the government for any funding at all - in fact we do not accept 
federal funding as a firm policy, but depend solely on the charitable 
generosity of the American people and corporate supporters. DAV is now 
93 years strong; the American people have seen our value and are openly 
willing to continue supporting DAV and our work.
    As a consequence of all of this experience within and around this 
great organization, I feel I gained a unique insight on DAV's goals, 
understand the logic of our focused mission, and know with certainty 
why DAV is a national asset.
    As part of our mission we strongly support and supplement the work 
of the Department of Veterans Affairs (VA) through many of our 
programs. VA provides vital services in health, benefits, housing, 
insurance, employment, and many other services too numerous to detail 
here to the men and women who served our nation. Over the past several 
years we seem only to hear the negative stories related to VA, such as, 
``I have waited so long to get my disability claim decided,'' or ``it 
took me weeks to get a health care appointment.'' DAV recognizes the 
flaws in the system, and we work hard to identify and correct them, but 
it is important for us to remember that the Veterans Health 
Administration (VHA) employs hundreds of thousands of dedicated staff 
who provide high-quality health care services to millions of veterans 
each year and saves the lives of veterans every single day; and VA's 
benefits arm improves the quality of life of every veteran who touches 
VA.
    Messrs. Chairmen, from time to time we hear stories that suggest VA 
may be a ``9:00 to 5:00'' operation. I suppose it may be true in some 
cases where misunderstandings occur, or mistakes are made, but let me 
take a moment to relate a personal experience of mine that gave me a 
very different impression of VA and a very happy outcome for me and my 
family. Last June I was in Pittsburgh with fellow DAV members to attend 
the DAV Department of Pennsylvania state convention. When my convention 
duties were done, my wife and I had an early Sunday morning flight back 
to our home in California. Long before dawn, we were up and packed. As 
we made our way down to the hotel lobby with our luggage I became 
acutely ill. I was suddenly dizzy, disoriented, and unable to control 
my legs or even keep my balance. Frankly, I thought I might be having a 
stroke or heart attack. The next thing I knew, I was in an emergency 
vehicle headed to a hospital. The EMT attending to me in the vehicle 
knew I was a veteran and asked if I preferred to be taken to the local 
emergency room or the Pittsburgh VA on University Drive. I learned 
later that Pittsburgh is one of several cities that allow veterans to 
choose VA for emergency services rather than other designated emergency 
receiving hospitals. Since I am enrolled at the Greater Los Angeles VA, 
and for many years have been highly satisfied with my care there, I 
told him to take me to the VA.
    I had never been in the Pittsburgh VA facility or to any VA 
hospital in an emergency at 6 o'clock in the morning. On arrival at the 
University Drive facility, and not knowing what to expect so early 
Sunday morning, I was met by a team of VA physicians, nurses and 
technicians. After their quick but thorough assessment, blood work, X-
rays, and scans, a young female physician informed me I suffered from 
two blood clots in my lower abdomen and leg, and that I needed surgery 
immediately. Of course I consented and was taken to the operating room 
shortly thereafter. By 11 o'clock that morning, I was in a state-of-
the-art recovery room coming out of anesthesia, and I was fine. I truly 
believe those staff on duty at the crack of dawn that June morning 
saved my life. By the end of that week I was back on my feet and headed 
home to California; grateful that VA was there when I needed lifesaving 
emergency care, even on a Sunday morning.
    So Messrs. Chairmen and Members, I hope that when someone says to 
you that VA is only a ``9:00 to 5:00'' operation - that veterans need 
not try to apply for care at night or on weekends - please recall my 
story, which I am certain is repeated many thousands of times a year at 
VA facilities all over this country. I received care from VA that 
morning that was second to none; care that saved my life. Without 
hesitation I would recommend VA health care to any veteran.

VA HEALTH CARE: A LIFESAVING HEALTH-MAINTENANCE RESOURCE
    The nation needs to sustain a viable health care system for the 
lifetime of care that will be needed by thousands of wounded, injured, 
and ill veterans from current and prior wars. The federal resources 
provided to VA must be sufficient to meet the specialized needs of 
wartime veterans who suffered polytrauma, traumatic brain injury (TBI), 
amputations, blindness, burns, spinal cord injury, mental health 
challenges, and other terrible conditions brought on by war. Also, we 
must ensure that VA is prepared to handle the influx of new veterans 
streaming into the health care and benefits administrations while 
continuing to care for previous generations of wartime veterans.
    Wartime service members, like many generations of veterans, 
enlisted in our military services for the good of the nation, to 
advance the liberty of strangers in foreign lands, protect our freedoms 
at home, and to keep our nation strong. The men and women who serve and 
their families make great sacrifices during military service and, for 
many, those sacrifices continue throughout their lives. They are put in 
harm's way because of the actions and decisions of our government; 
therefore, Congress and the Administration are responsible, morally and 
legally, for the well-being of veterans, their families and survivors. 
In our current overseas wars, more than 6,600 military personnel have 
died from wounds, illnesses, and accidents in Iraq and Afghanistan, and 
hundreds of thousands of service members have been wounded in action, 
became disabled, or made seriously ill as a result of their service to 
our nation. After coming home, almost 700,000 of these veterans have 
appeared in VA facilities for health care or other attention. The men 
and women of DAV will continue to fight to ensure that our government 
fulfills its promises to them and to generations to come.
    Messrs. Chairmen, DAV and the veterans we represent are grateful 
for the support that your Committees and Congress have provided to the 
VA health care system. VA has received substantial annual funding 
increases for its health care programs for a decade, and more 
importantly, VA has become one of the highest quality health care 
systems in the world. Yet, despite VA's successes, access problems 
continue to confront many veterans seeking care for certain conditions 
and at certain locations.
    We call upon these Committees to vigorously provide oversight of VA 
to ensure that it is properly carrying out its mission to our nation's 
veterans and to their families and survivors. DAV wants funds provided 
by Congress to be used effectively by VA for direct medical care and 
support services, and not wasted or squandered. We remain committed to 
working with Committee Members and staff to report our concerns when we 
sense problems and to work with you to find solutions so that veterans 
may be better served.
    The VA health care system, the VHA, is the largest direct provider 
of health care services in the nation. Many DAV members rely solely on 
this system for their lifelong care. Providing basic and specialized 
services is an integral component of VA's core mission of providing 
comprehensive veteran-centered health care. VHA conducts veteran-
focused research and has developed expertise in the areas of blind 
rehabilitation; TBI; prosthetics services for veterans with limb loss; 
spinal cord injury/dysfunction services; post-deployment mental health 
challenges, such as post-traumatic stress disorder (PTSD); and war-
related polytrauma injury care.
    As DAV members we vigorously defend this unique system developed to 
care for those who have served our nation and its citizens. Each year 
we advocate for sufficient, timely, and predictable funding for VA to 
ensure it has the resources to fully carry out its mission and to 
protect, enhance, and strengthen the system that provides care to over 
six million veterans annually. We recognize and applaud the continued 
oversight by your Committees to improve the system and to ensure 
resources provided are spent wisely and focused on direct patient care. 
We fully support you in those efforts and want to do our part to help 
ensure a sustainable system for current and future generations of 
veterans who will need VA.

DECADES OF CHALLENGES AHEAD
    There is no shortage of challenges for VA in the upcoming decades. 
VA confronts a rapidly aging health care capital infrastructure; rising 
long-term care needs of our declining World War II and Korean War 
veteran generations; an aging Vietnam-era population; and a new 
generation of war veterans returning home from Iraq and Afghanistan 
with long-term polytrauma, TBI, and significant post-deployment mental 
health needs, among other challenges. We must ensure barriers to care 
and delivery delays in benefits are minimized and that veterans who 
need VA services receive the basic and specialized services they need; 
when and where they need them.
    VA is making significant strides in both the Veterans Benefits 
Administration (VBA) and VHA to improve benefits delivery and health 
care services, respectively, and DAV applauds those efforts. 
Unfortunately, we have a new generation of war veterans streaming into 
the system now, an alarming suicide rate in the military and veteran 
communities; increasing rates of women veterans enrolling in VA, 
especially those in childbearing years; and significant new demand for 
specialized post-deployment mental health services and for more timely 
and accurate disability claims decisions. These pressures almost create 
the ``perfect storm,'' and VA will have little choice but to attempt to 
respond to all of these forces coming together. Your support of VA can 
and must guide the success of those efforts.

THE FISCAL YEAR 2014 INDEPENDENT BUDGET, BY VETERANS FOR VETERANS
    As of today, Congress has yet to receive the Administration's 
fiscal year (FY) 2014 budget request. We understand its delivery may be 
delayed until March, or possibly later. Nevertheless, we urge your 
Committees to closely monitor VA's current medical care program funding 
to ensure VA has received sufficient funding for the remainder of this 
fiscal year, and to carefully examine the VA's budget proposal when it 
is released for the FY 2014-15 periods, to be sure that the government 
continues to provide sufficient, timely, and predictable funding for VA 
health care to meet its obligations to our nation's heroes.
    In absence of the Administration's budget request for FY 2014, DAV 
and our Independent Budget (IB) co-authors (AMVETS, Paralyzed Veterans 
of America, and Veterans of Foreign Wars of the United States) are 
calling for $58.8 billion in VA Medical Care funding. For Medical and 
Prosthetic Research, the IB requests a funding level of $611 million. 
The IB recommends approximately $2.8 billion for VA's General Operating 
Expenses. For total construction programs, the IB recommends $2.3 
billion, $1.1 billion for major construction programs, $1 billion for 
minor construction projects, and $151 million for VA grants to state 
veterans homes and state veterans cemeteries. DAV and its IB co-authors 
recommend a total discretionary funding level of $68.4 billion in FY 
2014. More detail on our recommendations for both policy and budget 
matters can be found at www.independentbudget.org. Our staffs stand 
ready to provide you additional or clarifying information on our 
concerns about the budget, and we hope to testify soon before your 
Committees on these issues.

CRITICAL INFRASTRUCTURE NEEDS GO UNMET
    We are deeply troubled by VA's continuing failure to adequately 
address it enormous unmet needs in health care infrastructure. The 
Government Accountability Office (GAO) reported last June that the FY 
2013 advance appropriation would cut VA's non-recurring maintenance 
expenditure by $1.3 billion and reduce equipment purchases by $400 
million. In addition, VA's FY 2013 budget request for major and minor 
construction combined was only $1.1 billion, $2.6 billion less than the 
IB recommended last year. Our recommendations for infrastructure 
funding were based directly on VA's own analysis and estimates of its 
capital infrastructure needs. Although Congress has funded a 
significant number of new VA major medical facilities in recent years, 
the vast majority of existing VA medical centers and other associated 
buildings on average are more than 60 years old. Aging facilities 
create an increased burden on VA's overall maintenance requirements and 
add even more routine operational costs. Unless Congress effectively 
responds by approving additional capital funding, we fear that VA's 
declining infrastructure will adversely affect quality of care and 
efficiency of operations and risk a diminution of the care and services 
provided to wounded, injured, and ill veterans.
    Last summer, VA released an Appropriations Committee-directed study 
of its infrastructure needs in its research facilities. The study was 
conducted and reviewed by outside experts. The report of the study 
concluded VA needed almost $800 million to upgrade, restore and, in 
some cases, replace research facilities in over 100 VA academic health 
centers. VA has made no public statements with respect to this report 
or its intentions to address these deficits. We eagerly await the 
Administration's budget to determine if VA intends to begin the 
restorative process and address, at minimum, the most urgent needs 
identified. The IB recommends Congress appropriate $50 million in FY 
2014 for up to five replacement research facilities, and $175 million 
to aid in maintenance and repair of the most pressing of these 
priorities.

THE GOVERNMENT FISCAL POLICY STALEMATE CANNOT BE SOLVED ON THE BACKS OF 
        VETERANS
    The current fiscal climate seems concentrated primarily on reducing 
spending across domestic agencies. DAV members are extremely grateful 
for this nation's generosity and for the benefits available to those 
who have suffered injury or illness during their military service; 
however, we are deeply disturbed to hear of even a possibility of delay 
in receipt of wounded and injured veterans' disability compensation 
benefits or any lost access to VA health care. DAV believes delay means 
denial, and we will not stand idly by and allow this to happen. During 
this session of Congress there will surely be tough choices and 
decisions to be made by Members in both Chambers and by the President, 
but we ask each of you and this Congress as a whole to stand up for our 
nation's veterans, take the appropriate actions you must, but remember 
to keep the promises you have made to the men and women who served.
    Reductions in VA funding and personnel could have devastating 
consequences on the lives of our nation's veterans and their families. 
Therefore, we ask the Members of these Committees to make doubly clear 
to the Administration, Congress and the American people that veterans 
have paid their debts in advance, and made their contributions with 
military service to this country, and should not be forced to settle 
for an inferior VA that struggles to meet their needs.
    Messrs. Chairmen, America's veterans, more so than any other group, 
have lived up to their responsibilities by putting their lives on the 
line in defense of our country and its cherished ideals. We are willing 
to sacrifice for the good of our nation, as long as that sacrifice is 
shared by one and all. And no one knows more about sacrifice than those 
who were wounded or injured serving in our nation's military forces, 
and their loved ones who must care for them thereafter - exemplified by 
the very men and women seated before you today.
    Just as America's citizens have responsibilities to the nation, 
America's leaders and policy makers have responsibilities to our 
nation's citizens. Today, this concept of shared, mutual responsibility 
lies at the very heart of the ongoing debate about the size and scope 
of the federal government. As an organization that provides services at 
no cost to veterans and their families and survivors, or to the 
government, DAV understands that government cannot be all things to all 
people. Regardless, there can be no question that it is, and must 
always remain, the primary responsibility of the federal government to 
care for our nation's veterans, their families and survivors, and in 
particular those who were wounded, injured and made ill consequent to 
that service. That responsibility begins right here in this room, with 
the Members of these Committees.

BUDGET GIMMICKS AND ADVANCE APPROPRIATOINS
    In last year's FY 2013 budget submission, VA requested an 
authorized level for Medical Care of $55.7 billion, compared to DAV's 
and the Independent Budget's recommendation, $57.2 billion, leaving a 
shortage of $1.5 billion. While VA's year-to-year request for VA health 
care was more than most federal programs received in the 
Administration's entire FY 2013 budget submission, it extended a 
recurring theme in funding practice that has seen annual increases 
trending down from 10.2 percent in FY 2010 to 7.2 percent in FY 2011 to 
5.0 percent in FY 2012 to 4.3 percent in FY 2013 and now down to 3.3 
percent for the pending FY 2014 advance appropriation level. While 
there are certainly many possible factors to explain this spiraling 
down of VA health care funding growth, careful scrutiny is merited when 
continuing reports from around the country suggest that veterans are 
experiencing growing problems accessing VA health care; that VA medical 
centers and clinics are deferring equipment purchases; holding off 
maintenance contracts; and delaying procurements; and that VA 
facilities have placed ``unofficial'' hiring freezes into effect. In 
this environment, it is imperative that VA's base medical care funding 
level be carefully examined to determine whether it is sufficient to 
meet both known and projected demand.
    Moreover, when we reviewed details underlying VA's FY 2013 funding 
request last year, some of the same recurring gimmicks appeared once 
again, such as the practice of relying on ``operational improvements'' 
or ``management efficiencies'' to reduce the actual funding needed 
based on workload expected. VA's last four submitted budgets, including 
those for advance appropriations, have relied on undocumented and 
mostly unrealized future ``savings'' that have swelled in budget 
requests from $1.1 billion in FY 2011 to $1.4 billion in FY 2014. We 
have no reason to expect a different approach will be taken in the 
coming FY 2014-15 budget request of the President.
    The GAO last year issued a report (GAO-12-305) that examined VA's 
methodology for estimating and tracking ``savings'' and confirmed our 
concerns that there were significant problems in how these calculations 
were made and documented. GAO found that only two of VA's six proposed 
``operational improvements'' contained in the FY 2012 budget were 
reasonable in terms of the premises of their formulation.
    This GAO report echoed similar GAO reports (GAO-06-359R and GAO-06-
958) delivered to Congress in February 2006 after a budget crisis in 
2005 had forced VA to make two supplemental requests for almost $3 
billion in additional medical care appropriations for FY 2005 and FY 
2006.
    Unfortunately, it has become apparent that VA and OMB are once 
again using projected improvements or efficiencies to reduce 
appropriations requests, which the Independent Budget co-authors and 
GAO have concluded could lead to future funding shortfalls. In its 
report to Congress last June (GAO-12-689) after reviewing the 
Administration's FY 2013 and FY 2014 advance appropriations budget 
submissions, GAO concluded that, `` . . . VA estimated savings for 
fiscal year 2013 using the same methodologies it used in the past, some 
of which GAO previously found lacked analytical support or were 
flawed.'' In addition, GAO reported that, `` . . . VA's fiscal year 
2013 estimate for NRM [non-recurring maintenance]--$710 million--does 
not appear to correct for the long-standing pattern where VA's NRM 
spending exceeds VA's NRM estimates.'' In conclusion, GAO stated that, 
``Until these issues are addressed, VA's estimates of NRM and 
operational improvements may not be reliable and are of limited use for 
decision makers.''
    We share GAO's concerns about whether such ``savings'' will in fact 
be achieved or verified. Should such savings not materialize, the 
resulting shortfall will undercut VA's ability to provide health care 
for all veterans seeking such care.

CONGRESSIONAL BUDGET OVERSIGHT IS ESSENTIAL
    DAV also believes that Congress must provide aggressive oversight 
of any revisions to the Medical Care estimates for FY 2014 and future 
years that differ from those previously submitted or approved as 
advance appropriations. We have serious concerns about whether the 
Administration is properly reviewing prior year advance appropriations 
estimates. For the second year in a row, the Medical Care revision was 
virtually identical to the previous year's advance appropriations 
request despite VA's having another year's worth of updated data to 
review. We are also concerned about the continued trend in VA of 
revising downward the medical care collections estimates. In its FY 
2012 budget submission, the Administration projected collections of 
approximately $3.3 billion for FY 2013; however, last year that 
estimate was revised down to approximately $3.0 billion, a net loss to 
the system of $300 million in health care funds.
    In order to ensure sufficient and timely funding for veterans 
health care, Congress needs to strengthen oversight of the advance 
appropriations process. Under the provisions of P.L. 111-81, the GAO 
was required to study and report on the Administration's VA medical 
care budgets submitted in 2011, 2012 and 2013. In each of these years, 
GAO reported significant findings that Congress has received and should 
be considering in determining VA health care funding levels and the 
accuracy of VA's Enrollee Health Care Projection Model that underlies 
its budget projections. In order to continue gaining access to such 
valuable information, we ask Congress to immediately assign GAO to 
undertake a similar study for the FY 2014 budget cycle, and to enact 
legislation this year to permanently authorize the GAO reporting 
requirement.
    While Congress has statutory authority to enact advance 
appropriations for VA health care, Congressional budget rules generally 
prohibit advance appropriations and require that a budget waiver be 
approved for each year in which any advance appropriations are made. 
While Congress has provided waivers against points of order for each of 
the past three budget cycles, in order to ensure that advance 
appropriations for VA health care continue in the future, Congress 
should amend the Congressional Budget and Impoundment Control Act of 
1974 to provide a permanent waiver against points of order for any 
advance appropriations provided to the Department of Veterans Affairs.

ADDITIONAL VA ACCOUNTS SHOULD BE ADVANCE-APPROPRIATED
    Finally, although advance appropriations policy for VA medical care 
funding has been successful in helping the VA health care system 
operate more efficiently and rationally during unrelated budget 
stalemates, other VA accounts have gotten snared in budget paralysis. 
Particularly in the light of ongoing disputes over the coming effects 
of sequestration, debt ceiling extensions, and potential government 
shutdowns, we believe Congress should consider expanding the advance 
appropriations process to the remaining VA appropriations accounts. For 
example, although VA medical care funding may provide assurance that a 
new outpatient clinic will open without delays because appropriations 
are available to support it, the fact that VA's IT funding is still 
provided through the regular annual appropriations process can mean 
that computers or other IT systems on which all VA facilities rely 
might not be available until Congress completes work on the regular 
appropriations acts. Similarly, some of the funding for VA's Medical 
and Prosthetic Research program directly contributes to excellent 
clinical care and supports VA's affiliation relationships with over 100 
schools of medicine and other health professions, but it is funded 
apart from medical care advance appropriations, so that program is 
subject to budget stalemate as well. Moreover, the funding for VA 
construction accounts, providing VA capital infrastructure and large 
investments in facilities improvements, would be more efficient and 
cost effective if it were provided through advance appropriations. 
Finally, the Veterans Benefits Administration's ability to address the 
backlog of pending claims and transform itself into a modern 21st 
century organization is being hindered by the predictable annual budget 
fights and seemingly endless continuing resolutions. Given the 
universally recognized success of advance appropriations in VA health 
care, Congress and VA should determine whether some or all of the other 
VA appropriations accounts should be managed through advance 
appropriations.

CONTINUING RESOLUTIONS DO NOT CARE FOR VETERANS
    Messrs. Chairmen, as you well know, once again last year Congress 
failed to fully complete the appropriations process for FY 2013 in 
regular order, instead choosing to fund the federal government through 
a six-month continuing resolution, whose authorization period ends next 
month. As a result of the enactment of advance appropriations the prior 
year; however, the VA health care system is generally shielded from the 
overdue process.
    DAV remains concerned that VA health care spending in the second 
half of FY 2013 may be negatively impacted by the next continuing 
resolution if the FY 2014 advance appropriation issue is not resolved 
soon. The unacceptable manner in which the advance appropriations 
funding was handled in last year's continuing resolution only deepens 
our concern.

EXPANDING MENTAL HEALTH CARE SERVICES
    Chairman Miller, you recently endorsed a VA-TRICARE outsourcing 
alliance to serve the mental health needs of newer veterans that VA is, 
admittedly, struggling to meet today. Having offered little to bolster 
the confidence of DAV's members and millions of other veterans and 
their families that mental health services are, in fact, being 
effectively provided by VA where and when a veteran might need such 
care, we urge VA to work with the Committee to ensure that, if mental 
health care is expanded using the existing TRICARE network or some 
other outside network, veterans must receive direct assistance by VA in 
coordinating such services, and the care veterans receive must reflect 
the integrated and holistic nature of VA mental health care.
    When a veteran acknowledges the need for mental health services and 
agrees to engage in treatment, it is important for VA to determine the 
kind of mental health services needed and whether the most appropriate 
care would come from a VA provider or a community-based source. This 
type of triage is crucial, because effective mental health treatment is 
dependent upon a consistent, continuous-care relationship with a 
provider. Once a trusting therapeutic relationship is established 
between a veteran and a provider, that connection should not be 
disrupted because of a lack of VA resources, a local parochial 
decision, or for the convenience of the government.
    Moreover, it is imperative that if a veteran is referred by VA to a 
community mental health resource we would insist the care be 
coordinated with VA. Because of a high degree to which this particular 
patient population also has difficulties with physical functioning and 
general health, these patients will very likely need other health 
services VA is able to provide. A critical component of care 
coordination is health information sharing between VA and non-VA 
providers. Information flow increases the availability of patient 
utilization and quality of care data and improves communication among 
providers inside and outside of VA. Not obtaining this kind of health 
information poses a barrier to implementing patient care strategies 
such as care coordination, disease management, prevention, and use of 
care protocols. These are some of the principal flaws of VA's current 
approach in fee-basis and contract care.

THE VITAL NATURE OF DISABILITY COMPENSATION
    Messrs. Chairmen, as I indicated earlier in this statement, a 
sacred obligation of our government and core mission of DAV is the VA's 
provision of benefits to relieve the ill effects of disability on 
veterans and their families. For those benefits to effectively fulfill 
their intended purpose they must be adequate and they must be granted 
in a timely manner. The ability of disabled veterans to maintain 
themselves and their families often depends on the timely delivery of 
these benefits. The need for benefits among disabled veterans is 
usually urgent. While awaiting action by VA, they and their families 
may suffer hardships; protracted delays can lead to deprivation, 
bankruptcies, home foreclosures, and even homelessness. Tragically, 
innumerable veterans have died from their service-related disabilities 
while their claims languished at VA, in some cases for years. This sad 
fact alone proves disability benefits are crucial; providing for 
veterans disabled as a result of their service to our nation should 
always be a top priority of the government.
    As the House and Senate address the major challenges facing our 
nation, we urge you to continue focusing on the unfinished work of 
reforming the veterans' benefits claims processing system. For DAV and 
many other veterans organizations, ensuring that disabled veterans and 
their dependents and survivors receive all the benefits they have 
earned, without undue delay, remains among our highest legislative 
priorities for 2013.

REFORM: THE ENORMOUS CHALLENGE OF DISABILITY CLAIMS
    The problems plaguing the VBA claims system are well known: the 
number of claims filed each year is growing, as are the number of 
issues presented in each claim; the complexity of claims filed is 
increasing; the backlog of claims pending is staggering; and the 
quality of the claims decisions remains far too low. Over the past 
dozen years, the number of veterans filing claims for disability 
compensation has more than doubled, rising from nearly 600,000 in 2000 
to over 1.4 million in 2012; and this year VBA expects to receive 
another 1.4 million claims. Yet despite the hiring of thousands of new 
employees, the number of pending claims for benefits, often referred to 
as the backlog, continues to grow.
    While attention remains focused on the size of the claims backlog, 
it is important to recognize that eliminating the backlog does not 
necessarily reform the claims processing system, nor does it guarantee 
that veterans will be better served by VA. The backlog is a symptom, 
not the root cause of VBA's claims processing problems. In order to 
achieve real and lasting success, the VBA must remain focused on 
creating a claims processing system that is carefully designed to 
decide each claim right the first time.
    As of February 9, 2013, there were 899,242 pending claims for 
disability compensation and pensions awaiting decisions by VBA. 
Compared to four years earlier, that is an increase of 507,614 claims 
pending, more than a 130 percent increase. Over the past year VBA's 
expanded capabilities and efforts have slowed and almost stopped the 
rise of the backlog, which has leveled off; total claims pending are 
only two percent higher than one year ago. However, as of February 9, 
2013, the number of claims taking longer than 125 days, VBA's official 
target for completing claims, was 630,829, which is double the number 
from two years prior, although this rising number has also slowed and 
is about 9 percent greater than one year ago. More than 70 percent of 
all claims pending at VBA have been there more than the target of 125 
days, and the average time it takes VBA to process claims is now more 
than 270 days. But more important than the number of claims processed 
is the number of claims processed correctly. The VBA quality assurance 
program, known as the Systematic Technical Accuracy Review (STAR), 
which is publicly available on VA's ASPIRE Dashboard, shows that over 
the most recent 12-month period ending in November 2012, rating claims 
accuracy has been 86.3 percent, a slight improvement over the prior 
year. During the most recent three-month period the error rate has 
risen slightly.
    Recognizing that its infrastructure was outdated and ineffective, 
and that a rising workload could no longer be managed, VBA leadership 
in 2010 determined that it would be necessary to completely and 
comprehensively rebuild and modernize its claims infrastructure and 
processes. The Secretary of Veterans Affairs established an ambitious 
goal of zero claims pending more than 125 days, and all claims 
completed to a 98 percent degree of accuracy standard, and VBA outlined 
a three-year strategy to achieve that goal. Notwithstanding the fact 
that the VBA has attempted to modernize its claims processing system 
without success numerous times over the past half century, we see 
hopeful signs of progress toward a successful transformation.
    Perhaps most encouraging has been VBA's decision to partner with 
DAV and other VSOs that help veterans file claims and possess 
significant knowledge and experience in the claims process. Because DAV 
and other Veterans' Service Organizations (VSOs) collectively hold 
power of attorney (POA) for millions of veterans who are filing or have 
filed claims, VBA recognized close collaboration with VSOs could reduce 
its workload and increase the quality of its work. We can make VBA's 
job easier by helping veterans prepare and submit better claims, 
thereby requiring less VA time and fewer resources to develop and 
adjudicate them. We have been increasingly consulted on initiatives 
proposed or underway in VBA, including fully developed claims (FDC), 
disability benefit questionnaires (DBQs), the Veterans Benefits 
Management System (VBMS), the Stakeholder Enterprise Portal (SEP), the 
update of the VA Schedule for Rating Disabilities (VASRD), and many of 
the pilots being conducted at VA Regional Offices. Consistent with the 
path set forth by both VBA and VA leadership, VBA must continue to 
reach out to its VSO partners, both at the national and local levels, 
in order to consolidate and sustain a fruitful partnership that result 
in better service and outcomes for veterans.
    Over the past three years, VBA has made significant progress in 
designing, testing, developing, and now deploying a comprehensive new 
claims processing system. At the same time, through expanded resources 
and greater focus, VBA has slowed the rise of the backlog of pending 
claims for the first time in years. The question now is whether VBA's 
transformation process, which is centered on a new IT system, a new 
organizational model, and a new culture of quality, will be able to 
simultaneously improve accuracy and increase production so that every 
veteran can expect each claim for benefits to be decided right the 
first time. It will be imperative that Congress provide sufficient 
funding to meet these challenges and aggressively oversee the 
implementation of VBA's transformation plans in order to finally fix 
the claims processing system. In particular, we urge these Committees 
to oversee the work in VBA to accomplish the following objectives:

    <bullet>  Increase the quality and hours devoted to annual 
training, strengthen certification examinations, and develop 
accountability measures for employees who repeatedly fail to pass the 
examinations.
    <bullet>  Change how VBA measures and rewards performance at every 
level in order to create a culture focused on quality and accuracy, 
rather than solely on speed and production.
    <bullet>  Properly balance resources provided to each of the three 
processing lanes in VA's ``I Labs'' initiative so that both complex and 
simple claims receive equitable consideration.
    <bullet>  Encourage the use of private medical evidence by 
releasing disability benefits questionnaires for medical opinions and 
PTSD claims, and by passing legislation requiring VA to give due 
deference to private medical evidence that is competent, credible, 
probative, and otherwise adequate for rating purposes.
    <bullet>  Faithfully implement sections 504 and 505 of Public Law 
112-154 to modify VA's duty to notify and assist claimants as Congress 
intended, in order to protect veterans' rights during the claims 
process.
    <bullet>  Ensure that standardized notification letters, or any 
other automated rating process, continue to provide sufficient, 
specific, and individualized information to veterans and their 
advocates of the reasons and bases for rating decisions.
    <bullet>  Ensure that the VBA is provided with sufficient funding 
to complete the development and implementation of the Veterans Benefits 
Management System, as well as the digital conversion of all active 
paper claims files.

DAV - DEDICATED TO A SINGLE PURPOSE: EMPOWERING VETERANS TO LEAD HIGH-
        QUALITY LIVES WITH RESPECT AND DIGNITY
    Messrs. Chairmen and Members of these Committees, I now turn to a 
topic that fills me with great pride--the dedication of DAV members, 
some of whom are also employees of our organization.
    Everyone behind me in this beautiful hearing room knows DAV well, 
because collectively with our 1.2 million fellow members, we are DAV. 
We take great pride in making individual contributions to the work of 
our Chapters and Departments across this country, helping our 
communities, helping VA, and in so many ways helping other veterans who 
have served and sacrificed. This is not only our mission, but our 
reward.
    Messrs. Chairmen, in this part of my testimony not only will I bear 
witness to what we at DAV expect from Congress in the form of 
legislation and other support, but I will also summarize some of our 
work that you may not know about, but that is important to America's 
veterans, their families and survivors, and also represents how DAV 
cares for our fellow veterans, and for our country.
FULFILLING OUR PROMISES TO THE MEN AND WOMEN WHO SERVED
    Messrs. Chairmen, DAV's core mission is carried out through our 
National Service Program. Our unparalleled program is the backbone of 
DAV, arcing from the local chapter level through the 52 state DAV 
Departments to our national offices here and in Cold Spring, Kentucky.
    Our Chapter Service Officers, Department Service Officers, 
Transition Service Officers and National Service Officers have never 
wavered in their commitment to serve our nation's wounded, injured, and 
ill veterans, their families and survivors, or any veteran for that 
matter. No one has more impact on our organization's ability to meet 
our primary mission. No one has more impact on our organization's 
stellar reputation. No one has more impact on empowering disabled 
veterans to become productive members of society again. And I believe 
no one has a tougher task than those DAV service officers assisting 
veterans and their families and survivors in their claims for benefits 
from the government.
    In addition to the long hours, often frustrating circumstances and 
tedious tasks, to be effective, DAV National Service Officers must gain 
a solid understanding of the claims process in its complex entirety, 
undergo intense training and education in title 38 law and regulations, 
and college-level classes associated with our representational duties - 
much of which they receive through the national organization - guided, 
monitored, and supervised by our professional National Service 
Department headquarters personnel in Washington D.C.

DAV NATIONAL SERVICE PROGRAMS
    To fulfill our mandate of service to America's wounded, injured, 
and ill veterans and the families who care for them, DAV employs a 
corps of more than 250 National Service Officers, all of whom are 
wartime service-connected disabled veterans who successfully complete 
their training through VA's Vocational Rehabilitation and Employment 
Service. The military experience and personal claims and treatment 
experiences of DAV NSOs through military health care and VA not only 
provide a significant knowledge base, but also help promote their 
passion for helping other veterans through the labyrinth of the VA 
system. DAV NSOs are situated in all VA regional offices as well as in 
other VA facilities throughout the nation.
    Our NSOs undergo a rigorous 16-month on-the-job training program as 
well as structured and continued training and education throughout 
their DAV careers. During the course of the on-the-job training 
program, NSO trainees learn applicable laws and regulations pertaining 
to VA benefits and complete a series of academic courses which include 
courses in anatomy and physiology, medical terminology, English 
composition, legal writing, and public speaking. These dedicated NSOs, 
many of whom are veterans of war in Iraq and Afghanistan, sustain DAV's 
legacy of providing the best and most professional benefits counseling 
and claims assistance available anywhere. With the generous support of 
a grateful American public and public-spirited businesses, DAV is proud 
to provide these services, without cost, to any veteran, their 
dependents, or their survivors in need.
    During 2012, DAV NSOs interviewed over 187,000 veterans and their 
families; reviewed more than 326,000 VA claims files; filed over 
234,500 new claims for benefits; and obtained more than $5.1 billion in 
new and retroactive benefits for the wounded, injured, and ill veterans 
we represented before the VA. Our NSOs also participated in more than 
287,000 VA Rating Board actions.

APPELLATE REPRESENTATION OF DENIED CLAIMS
    DAV employs 10 National Appeals Officers (NAOs) whose duty is to 
represent veterans in their appeals before the Board of Veterans' 
Appeals (BVA) here in the nation's capital. In FY 2012, our NAOs 
provided representation in 31.1 percent of all appeals decided before 
the BVA, a caseload of approximately 13,789 appeals. Almost 47 percent 
of the cases represented by DAV resulted in remands. These remands 
resulted in additional consideration or development for over 6,400 
claimants who had appealed cases that were not adequately considered by 
VA regional offices. In more than 29 percent of the cases, involving 
over 4,000 appellants represented by DAV, the claimants' appeals were 
allowed, and the denials were overturned. This means that approximately 
three-quarters of the appeals represented by DAV NAOs resulted in 
original decisions being overturned or remanded to regional office 
rating boards for additional development and re-adjudication. DAV's 
remand and allowance rates were above BVA's average of 45.8 percent and 
28.4 percent, respectively.
    Additionally, DAV works closely with two private law firms that 
have agreed to provide pro bono services to veterans pursuing their 
appeals from adverse decisions of the BVA. In 2012, these pro bono 
attorneys offered free representation before the United States Court of 
Appeals for Veterans Claims in nearly 1,300 denied appeals and provided 
representation in over 1,000 of those cases. Since the inception of 
DAV's pro bono program, our attorney partners have made offers of free 
representation to more than 3,700 veterans and have provided free 
representation in over 2,200 cases.

DAV: ON DUTY AT WALTER REED AND OTHER KEY MILITARY FACILITIES
    Given the significant number of severely disabled service members 
under care at Walter Reed National Military Medical Center (WRNMMC) in 
Bethesda, Maryland, DAV continues to provide direct on-site assistance 
to wounded and injured active duty personnel. Our personnel are also in 
place at other important military treatment facilities throughout the 
nation. As of November 2012, these military facilities have cared for 
almost 1,600 individuals with traumatic amputations; including hundreds 
with multiple amputations; and, in at least four cases, the losses 
include all four limbs. Most of these amputees, 83 percent, have lost 
one or both legs, mostly from blasts of improvised explosive devices. 
These deadly homemade bombs are also the cause of most of the 
genitourinary wounds suffered by over 1,400 U.S. personnel. The total 
number of Iraq and Afghanistan veterans wounded in action as of 
February 7, 2013 was more than 50,400, of whom over 2,500 suffered 
traumatic burns; 142 lost at least one eye, and five lost both eyes.
    These sobering facts of modern war mean that current media 
attention is fixated almost exclusively on the newly wounded, but in 
historical terms our new casualties remain relatively light compared to 
other combat eras. To put this in some perspective, especially for 
newer members of these Committees, the VA reports that Vietnam veterans 
are its single largest veteran cohort, with an enrolled population of 
over 300,000 who were wounded in Vietnam, of whom almost 5,300 lost 
limbs and nearly 1,100 sustained multiple amputations. As we all know, 
over 58,000 names are engraved on the Vietnam Memorial - names of our 
personnel who gave their all. Earlier in history, the Normandy Allied 
campaign during the summer of 1944 cost our military forces 29,000 
deaths, with 106,000 wounded, missing, or captured.

TRANSITION SERVICES FOR NEW VETERANS
    The DAV's Transition Service Program (TSP) is in its 13th year, 
initiated shortly after the formation of the joint VA-Department of 
Defense (DOD) Benefits Delivery at Discharge (BDD) program, an 
initiative to provide transition assistance to separating military 
service members who incurred disabilities during their military 
service. The BDD program was developed to provide a smoother transition 
from the military to civilian society. The BDD program helps service 
members within 60 to 180 days of their military discharge to file 
claims for VA or DOD disability compensation (when approved, payments 
for these disabilities are generated shortly following discharge), and 
for transitioning into the VA health care system as may be needed. Our 
NSOs and TSOs provide free counsel and claims representation to service 
members who are eligible to participate in the BDD program. This 
program helps ensure that service members do not find themselves in a 
situation where the military benefits are discontinued, but their 
retirement or VA compensation benefits have not yet begun to flow. We 
support this program and any program that ensures new veterans and 
their families are not under-served in the transition process.
    For benefits counseling and assistance to separating service 
members in filing initial claims in the BDD program, DAV has assigned 
35 TSOs. These TSOs provide these services at military separation 
centers under the direct supervision of DAV NSO Supervisors. Our TSOs 
have been trained specifically to perform transition presentations, 
military service medical record reviews, and claims-initiating 
activities at military separation centers at more than 80 military 
installations within the continental United States.
    The success of the BDD program stems from the fact that claims are 
rated based on current medical evidence as documented in the military 
treatment record and current cooperative examinations that are 
conducted at the BDD intake sites. The BDD program is a win-win 
situation for both transitioning service members and for the federal 
government, and is a more humane method of dealing with seriously 
injured military service members.
    The DAV's TSP contributes to our goal of maintaining our preeminent 
position as a provider of professional services to veterans. In 2012, 
our TSOs conducted 2,760 briefing presentations to groups of separating 
service members, with 63,215 total participants in those sessions. Our 
TSOs counseled 31,761 persons in individual interviews, reviewed the 
military service treatment records of 30,192 individuals, and submitted 
benefits applications for 18,214 personnel to DAV NSOs for filing with 
the VA.
    DAV continues to work toward ensuring access to service members 
within the now-revised Integrated Disability Evaluation System (IDES). 
IDES is the result of a pilot project from a recommendation of the 
President's Commission on Care for America's Returning Wounded Warriors 
and was launched jointly by DOD and VA in 2007. The IDES has three 
features: a single, comprehensive medical examination; a single-source 
VA disability rating; and, enhanced case management methods. This 
program aims to help injured and ill service members gain faster access 
to TRICARE health services and VA benefits by developing a single 
medical examination used by both DOD and VA, with a single-source 
disability evaluation done by VA and accepted by DOD.

DAV MOBILE SERVICE OFFICE PROGRAM
    The DAV's fleet of 10 Mobile Service Offices (MSOs) puts DAV NSOs 
on the road to assist veterans where they live and increase 
accessibility to the earned benefits our nation provides to veterans. 
The specially equipped mobile offices visit communities across the 
country on an advertised and scheduled basis. This outreach effort 
generates a considerable amount of claims work from veterans who may 
not otherwise have had an opportunity to seek assistance at DAV 
National Service Offices.
    To support the MSO effort, DAV has received ongoing financial 
contributions from the Harley-Davidson Foundation. The mission of this 
project, entitled ``Harley's Heroes,'' is to help DAV reach millions of 
veterans of all war generations and to show the respect DAV and the 
Harley-Davidson Corporation share for them. It also ensures veterans 
gain access to DAV benefits counseling and claims assistance when and 
where they may be needed.
    DAV also uses its MSOs for outreach to veterans in other public 
awareness programs, such as attending public air shows, Native American 
reservation events, NASCAR races, military retiree conventions, the 
Vietnam Moving Wall appearances, homeless veterans ``stand-downs,'' 
community fairs and parades, Veterans Day and Memorial Day activities, 
veterans job fairs, and information seminars of many types.
    During 2012, our MSOs traveled 108,288 miles to appear in 878 
cities and towns, including 183 Harley-Davidson dealerships. DAV NSOs 
interviewed 17,352 veterans and other potential claimants during these 
appearances.
    These specially equipped MSOs, along with our disaster relief 
teams, are also used to deploy into areas devastated by disasters, 
enabling DAV to provide much-needed assistance directly to displaced 
service-disabled veterans and their families. They have been used at 
ground-zero following the attacks on the World Trade Center, around the 
Gulf Coast following Hurricanes Katrina and Rita, after a destructive 
tornado in Greensville, Kansas, following a destructive storm in North 
Carolina, and most recently in New York and New Jersey following 
Hurricane Sandy.
    When a DAV MSO comes to your state or district, I would encourage 
the Members of these Committees and your staffs to stop by to learn 
first-hand the services that DAV is providing to your constituents. I 
would also highly recommend that you refer any of your constituents who 
may need assistance with their VA claims to visit our MSOs when they 
are in your areas.

VOLUNTARY SERVICE PROGRAMS
    Equally vital to the success of our mission to empower veterans to 
lead high-quality lives with respect and dignity, are the activities of 
almost 13,600 DAV and DAV Auxiliary members who selflessly volunteer 
their time to assist America's wounded, injured, and ill veterans. Our 
Voluntary Services Program is as strong as ever, making sure sick and 
disabled veterans are able to attend their medical appointments, 
providing them comfort and companionship and getting them the care they 
need and earned. Our volunteers are in VA medical centers and clinics 
in large numbers, and they visit wounded, injured, and ill veterans at 
home, going where the government cannot or will not go. DAV is leading 
the way in voluntary services, a fact that makes all of us proud to be 
a part of this organization, and makes me even prouder to have been 
chosen to lead this great organization.
    Between October 2011 and September 2012, these valuable members of 
DAV and its Auxiliary served our nation by providing more than two 
million volunteer hours of essential services to hospitalized veterans 
in VA facilities and transporting veterans to their medical 
appointments, saving taxpayers about $44 million in costs if federal 
employees had been required to provide similar services. Many DAV 
members volunteer at VA medical centers, clinics and community care 
units, and serve as Hospital Service Coordinators and drivers in DAV's 
nationwide Transportation Network, about which I will provide more 
detail later in this testimony.

LOCAL VETERANS ASSISTANCE PROGRAM
    In an effort to meaningfully touch the lives of more veterans in 
need of assistance, DAV created the Local Veterans Assistance Program 
(LVAP). Opportunities have always existed for individuals to assist 
veterans and their dependents - and DAV and our DAV Auxiliary members 
have answered that call in full measure. We see examples of this each 
and every day aimed at meeting the principal objective of our 
organization - to fulfill our promises to the men and women who have 
served.
    Our LVAP volunteers contribute time and energy for a variety of 
activities that include, but are not limited to:

    <bullet>  Chapter and Department Service Officer work.
    <bullet>  Specific outreach efforts, such as DAV's air show 
outreach programs, Harley's Heroes, and National Guard mobilizations 
and demobilizations.
    <bullet>  Direct assistance to veterans, families, and survivors, 
including engaging in home repairs and maintenance, and grocery 
shopping, among many other supportive activities.

    Since its inception five years ago, nearly 3,500 volunteers have 
participated in DAV's LVAP for a total of over one million hours of 
volunteer service. DAV is constantly seeking new ways to recruit and 
engage DAV members and volunteers, and we believe this new program will 
work to the advantage of all whom we serve.

THE NEXT GENERATION
    Sadly, Messrs. Chairmen, we are rapidly losing our veterans from 
the World War II era; and DAV is proportionately witnessing the loss of 
DAV volunteers from that population. Ever looking forward, DAV has 
sought to reward and develop a new generation of younger VA volunteers. 
A decade ago, we created a youth volunteer scholarship program to 
ensure the future of a viable DAV volunteer effort. In remembrance of 
former VA Secretary and former DAV Executive Director, the late Jesse 
Brown, we launched a special scholarship program in his name. Annually, 
the DAV Jesse Brown Memorial Youth Scholarship Program honors 
outstanding young volunteers who participate in the VA Voluntary 
Service Program to donate their time and compassion to wounded, injured 
and ill veterans. Since its inception, DAV has awarded 139 individual 
scholarships valued at $968,000, to enable these exceptional young 
people to pursue their goals in higher education through the value of 
volunteering. We at DAV are very proud of the Jesse Brown Memorial 
Youth Scholarship Program, and I am personally proud to report that our 
friends at the Ford Motor Company most recently donated $45,000 to this 
scholarship program to enable us to continue awarding these 
scholarships to worthy student-volunteers this year.
    Another corporation that has come forward to help veterans of all 
eras is the Golden Corral Corporation, which, this past November opened 
its doors for the 13th year in a row to all veterans on Golden Corral's 
``Military Appreciation Monday,'' serving almost 425,000 cost-free 
meals to veterans of the armed forces. These nationwide events also 
yielded nearly $1.3 million in donations to DAV chapters and 
departments in 2012. Since 2001, Golden Corral restaurants have served 
more than 3.6 million ``thank you'' meals to our nation's veterans, and 
helped raised in excess of $7.3 million in donations for DAV chapters 
and departments to use in veteran outreach and service programs in 
their communities.
    DAV's new ``Just B Kids'' scholarship program enables more children 
than ever to attend the highly acclaimed Camp Corral. The weeklong 
camping experience is operated through the philanthropic efforts of 
longtime DAV partner Golden Corral. This new program, which will be 
funded through a grant from the DAV Charitable Service Trust, provides 
children, who are facing immense hardships at home, a week to enjoy the 
great outdoors at Camp Corral.
    Generous fundraising efforts by Golden Corral, Ford, Harley 
Davidson, and others continue to help support DAV initiatives and 
programs throughout the year, well beyond volunteerism itself, and 
provide DAV great resources to outreach to local veterans so we can 
help them get the benefits and services they earned from a grateful 
nation.

NATIONAL TRANSPORATION NETWORK
    Messrs. Chairmen, DAV is extremely proud of the service provided by 
our volunteers, many of whom are disabled veterans themselves, or the 
family members of disabled veterans. These volunteers, some of whom are 
seated before you today in this hearing room, continue to serve the 
needs of our disabled veterans on a daily basis. Many of our nation's 
wounded, injured and ill veterans are aided because of the time these 
volunteers donate. Everyone at DAV applauds the efforts of DAV 
volunteers to our newest generation of veterans.
    DAV utilizes 192 Hospital Service Coordinators at 197 VA health 
care facilities across the nationwide system to oversee our National 
Transportation Network. This program provides free transportation to 
and from VA health care facilities to veterans who otherwise might not 
be able to obtain needed VA health care.
    From October 2011 through September 2012, DAV's National 
Transportation Network logged more than 27 million road miles and 
transported 777,199 veterans to VA health care facilities. More than 
9,000 volunteer drivers spent 1.9 million hours transporting veterans. 
Since our national transportation program began in 1987, almost 15 
million veterans have been transported over 556 million miles, for a 
total of more than 30.9 million volunteer hours by our DAV drivers.
    In 2012, DAV donated 117 vans to VA facilities at a cost of almost 
$3 million. In 2013, we plan on donating 110 vans at a cost of $2.8 
million. From 1987 through 2012, we have donated 2,586 vans at a cost 
to DAV of $56.6 million.
    DAV's efforts were aided in August 2012 by the support of the Ford 
Motor Company with the gift presentation of eight new vehicles to DAV 
for the Transportation Network. Since 1996, Ford has donated 164 
vehicles to support our work. The DAV is proud that Ford Motor Company 
continues to honor its commitment through its generous donations 
through the instrument of DAV to the men and women who have served our 
nation in uniform, who have preserved liberty for us here at home, and 
saved countless peoples around the world.
    DAV's commitment to our National Transportation Network is lasting 
and sure. We have deployed DAV vans in every state and nearly every 
Congressional district serving our veterans and your constituents.

NATIONAL DISABLED VETERANS WINTER SPORTS CLINIC
    DAV is a collaborator in another outstanding program that directly 
impacts the lives and well-being of seriously wounded and injured 
veterans. Working in cooperation with VA Recreation and Voluntary 
Services, DAV co-sponsors the annual National Disabled Veterans Winter 
Sports Clinic. For a quarter century now, this exceptional physical 
rehabilitation program, held in the mountains of Colorado, has 
transformed the lives of America's most severely wounded, injured, and 
ill veterans. This unique program - often referred to as ``Miracles on 
a Mountainside'' - helps severely injured veterans to re-build 
confidence, compensate for their injuries, and regain balance in their 
lives. This event promotes rehabilitation and restoration by coaching 
and encouraging veterans with severe disabilities to conquer adaptive 
skiing, skating, ice hockey, fly fishing, and other sports, and shows 
them by example that they are not ``disabled'' and thus barred from 
adaptive recreational activities and sports of all kinds. Veterans from 
all eras have attended our clinics, including many who were wounded and 
injured in the Iraq and Afghanistan campaigns. Often, this seminal 
event offers some veterans their very first experience in winter sports 
and gives them motivation to take their personal rehabilitation to a 
higher level than they may ever have imagined. Participants have 
included veterans with multiple amputations, traumatic brain and spinal 
cord injuries, severe neurological deficits, and even total blindness.
    For anyone who has attended ``Miracles on a Mountainside'' and 
observed our first-time participants, it is an inspiring sight, unlike 
anything you will see anywhere in the world. I can assure you, miracles 
do still occur. These wounded heroes experience life-changing events at 
our National Disabled Veterans Winter Sports Clinic, and so do all the 
inspired observers and VA volunteers who participate. I invite all 
Members of these Committees to come and experience the ``Miracles on a 
Mountainside'' with me and other DAV leaders this year. Our next clinic 
will occur from March 31 to April 5, in Snowmass Village, Colorado. If 
you want to see miracles, please come.

DAV CHARITABLE SERVICE TRUST
    Organized in 1986, the Charitable Service Trust (CST) is a tax-
exempt, not-for-profit, charitable grant-making arm of DAV. Under the 
umbrella of DAV, the CST is dedicated to one purpose: empowering 
veterans to lead high-quality lives with respect and dignity.
    DAV established the Trust to advance initiatives, programs, and 
services that might not fit easily into the scheme of what is 
traditionally offered through VA, state veterans' programs, or by the 
veterans' service organization community. Grant-making is targeted to 
not-for-profit entities based in the United States. Since the first 
grant was awarded in 1988, nearly $73.2 million has been expended in 
service to our nation's heroes, their dependents and family survivors. 
The CST's mission of service is accomplished by:

    <bullet>  Making sure wounded, injured, and ill veterans gain 
transportation to VA medical facilities for treatment.
    <bullet>  Providing food, shelter, and health care aid to homeless 
and needy veterans.
    <bullet>  Meeting the special needs of veterans faced with profound 
injuries including paralysis, amputation, post-traumatic stress 
disorder, and brain injuries.
    <bullet>  Supporting physical and psychological rehabilitation 
projects aimed at some of America's most severely injured veterans.
    <bullet>  Bringing hope to the forgotten and suffering families of 
veterans.

    Priority for grants is generally afforded to service projects 
providing direct assistance to wounded and injured veterans and their 
family members. Each year brings dramatic new changes in the lives of 
veterans that present greater challenges to our mission of service to 
veterans and their families. DAV's CST will continue to do all it can 
to meet their needs.
    As my testimony demonstrates, DAV remains committed to its focused 
mission, established 93 years ago. DAV is proud that it can direct its 
resources to the most needed and meaningful services for America's 
wounded and injured veterans and their families. There is no non-profit 
organization that tries to do more for injured veterans, their families 
and survivors than DAV.
    Since by national policy DAV neither seeks nor accepts government 
grants or government contracts of any kind, DAV is able to carry out 
these good works I am reporting to you today only through the 
continuing support of our members, our benevolent corporate partners, 
and a generous American public that remain faithful to our work and 
grateful for all that our veterans have done for this country. We are 
the humble instrument of their collective charity and take that 
responsibility very seriously. We would never abuse that faith.

60TH ANNIVERSARY OF THE KOREAN WAR'S END
    DAV is also proud to serve as a sentry to keep the living memory of 
those whose heroic deeds during wartime service otherwise might be lost 
to history. I call your attention to a case in point: this coming July 
marks the 60th anniversary of the end of the war in Korea. As a nation 
we tend to forget that over 400,000 victorious World War II veterans 
were - incredibly - called back to active duty military service 
beginning in 1950, to fight again, against yet another foreign 
aggressor nation, North Korea - with an army backed by Chinese and 
U.S.S.R. resources, war materiel, and troops.
    Korea was an especially cruel war, taking 54,200 American lives and 
wounding hundreds of thousands more; ironically many of them having 
survived combat in World War II. Almost six million American military 
personnel participated or supported our presence in Korea. Some, 
perhaps unwounded by enemy fire, literally froze to death in the 
entrenchments of brutal Korean winters. Our 7,140 POWs were routinely 
tortured by their captors; 2,701 died, and many of them were summarily 
executed while in captivity or were intentionally starved. Others still 
live with the scars brought by that ``police action,'' a precursor to 
the long war of attrition that came later in the small insignificant 
Southeast Asian country called Vietnam. Some of our combat veterans in 
Korea, even a few who had served in World War II, came back to Asia 
once again to serve in Vietnam.
    A few of those surviving Korean War veterans are here with me today 
as honored DAV members, along with a few of our remaining comrade 
brothers and sisters from World War II. Korean veterans have bequeathed 
to the nation their haunting but beautiful memorial on the National 
Mall, near the Lincoln Memorial, but their service and sacrifice still 
need recognition no less than those who served in Vietnam, the Persian 
Gulf, Iraq, or now, in Afghanistan. Veterans of Korea are American 
heroes, too, but in the shadow of World War II they never got proper 
recognition in our nation's only truly ``Forgotten War.'' But we at DAV 
will never forget.
    In making these remarks on Korea, I was reminded of the words of 
former Senator Bob Kerrey of Nebraska, a former Member of your 
Committee, Chairman Sanders, on the 30th anniversary of his award of 
the Congressional Medal of Honor for gallantry as a Navy SEAL in 
Vietnam; and I quote:

    I discovered again [in going back to Vietnam in 1990] something 
rather remarkable about the people of this great country - that though 
I still believed the war was a tragic mistake and that we made lots of 
errors along the way, the people of South Vietnam repeatedly said to 
me, ``We know you came here to fight and put your life on the line for 
strangers, and that you were willing to die for us will not be 
forgotten.''
    I . . . listened to [then-President] Kim Dae-Jung of South Korea 
say the very same thing in even more personal ways. Our Nation can be 
heroic by recognizing that we might write laws that give all of us a 
chance at the American dream, and by recognizing that as a great nation 
there will come a time when we must risk it all, not for the freedom of 
people that we know, but for the freedom of strangers.

    When it comes to explaining our American role in the world, and the 
devotion of our war veterans to the cause, whatever it is, from World 
War II to the present, no one could have explained it better than 
Senator Kerrey.

MISSING BUT NOT FORGOTTEN
    Our veterans should never be forgotten, Messrs. Chairmen, and 
especially our lost heroes. DAV has long been committed to the fullest 
possible accounting of American prisoners of war and those still 
missing in action today, including our men from Korea, the War in 
Vietnam, and even World War II. Similar to other DAV priorities already 
articulated, we insist that reliable and continuing funding for these 
efforts is crucial, even in today's restricted budgetary climate. The 
same as with benefits earned by our nation's wounded and injured 
veterans who are safe at home, the United States owes our unreturned 
heroes and their loved ones our best efforts to bring them back to U.S. 
soil, whether alive or deceased. We will never agree to leave them 
behind, forgotten. DAV supports full funding of this important 
humanitarian mission of the Departments of Defense and State, and we 
will remain committed until the fullest possible accounting can be 
achieved. It is important for America and all those who serve; past, 
present, and future, to know that our government remains committed to 
bringing home all our military heroes. DAV believes no one should ever 
be left behind.

THE AMERICAN VETERANS DISABLED FOR LIFE MEMORIAL
    An important priority for DAV this coming year is the construction 
of the American Veterans Disabled for Life Memorial. As you know, this 
long overdue Memorial to honor all of the American men and women who 
have been permanently disabled as a result of their military service to 
our nation, was authorized more than a decade ago by Public Law 106-
348. To build the Memorial, Congress authorized the Disabled Veterans' 
LIFE Memorial Foundation (DVLMF) to raise private funds to design and 
construct the Memorial, after which it will be turned over to the 
National Park Service to operate. The Memorial will be located here in 
Washington, D.C., just west of the Rayburn Building, as directed by 
Public Law 109-396. The Foundation successfully raised all the private 
funds necessary to build the Memorial and received all of the design 
and planning approvals several years ago, but has been prevented from 
beginning construction until street infrastructure improvements are 
made by the District of Columbia.
    Over the past decade, Congress has continually demonstrated its 
strong bipartisan support by reauthorizing the Memorial in 2007 (P.L. 
110-106), authorizing a U.S. Mint commemorative coin with the coin 
surcharge proceeds going to support the Memorial's construction in 2008 
(P.L. 110-277), and appropriating almost $4 million to the District of 
Columbia (P.L. 110-161 and P.L. 111-6) for street infrastructure 
changes necessary to accommodate the location of the Memorial as well 
as address security concerns about nearby Congressional office 
buildings. Thanks to strong bipartisan support from outgoing 
Transportation Secretary Ray LaHood and leaders in both the Senate and 
the House, the U.S. Department of Transportation awarded a $6 million 
grant last August to complete all the necessary street infrastructure 
improvements. The first phase of that street work has been completed, 
and public utility companies, including Verizon and PEPCO, have 
completed or currently are implementing utility relocations to clear 
the way for the Memorial's construction to begin. Barring any 
unforeseen delays, work on the final phase of street construction is 
scheduled to begin next month. The Memorial Foundation continues to 
work with all stakeholders in this project, including the National Park 
Service, the Architect of the Capitol, the U.S. Capitol Police Board, 
and the House Superintendent's Office, to ensure that there are no 
remaining concerns which might delay construction moving forward.
    Messrs. Chairmen, DAV has championed this Memorial for disabled 
veterans since its conception 15 years ago, and we have been joined in 
this endeavor by The American Legion, VFW, AMVETS, Paralyzed Veterans 
of America, Military Order of the Purple Heart, Iraq and Afghanistan 
Veterans, and many other veterans' organizations. America's disabled 
veterans, their families and caregivers eagerly await this tribute to 
their sacrifice. With continued bipartisan support from the House and 
Senate, we look forward to the Memorial's completion and dedication in 
October 2014, and we hope you will be able to join us then to celebrate 
that historic occasion.

NATIONAL LEGISLATIVE PROGRAM
    Messrs. Chairmen, DAV was founded in 1920 as a nonpartisan, 
nonprofit veterans' service organization. Since then, promotion of 
meaningful, reasonable, and responsible public policy for wartime 
service-disabled veterans has been at the heart of who we are and what 
we do. Fulfilling promises is the right thing to do. Regardless of your 
politics and whether you agree with our government's foreign policy 
decisions, our service men and women voluntarily put their lives on the 
line to ensure our safety and to protect the basic freedoms we enjoy as 
citizens of the United States.
    What is right for our nation and our citizens is to take care of 
those who served and sacrificed for our collective freedom. We do this 
by never forgetting the sacrifices of the men and women who served. We 
do this by keeping our promise to them: through Congress and VA, to 
provide the resources and services they need to enjoy the best quality 
of life possible, as they make the difficult transition back to 
civilian life.
    Major policy positions of DAV are derived from resolutions adopted 
by the delegates to our annual National Conventions. Since our first 
National Convention in 1921, DAV's legislative program has guided our 
advocacy for disabled veterans in conformance with the collective will 
of our members. Our 2012-2013 mandates cover a broad spectrum of VA 
programs and services, and they are available for you and your 
professional staffs to see on DAV's website, at http://www.dav.org/
voters/documents/Resolutions.pdf. I invite your staffs to consider the 
content of these resolutions in crafting legislation for the 113th 
Congress.
    As DAV has testified in the past, we are concerned that some of the 
benefits Congress enacted are exclusive to veterans of recent service 
in Iraq and Afghanistan. While we understand that these are special 
circumstances that may require legislative consideration to ease 
transition challenges from military to civilian life, DAV represents 
wartime veterans of all ages and of any periods of service. We remain 
dismayed that previous generations cannot take advantage of a number of 
these new improvements enacted into law, and we ask your Committees to 
reconsider the trend to exclude older veterans from the new and 
expanded benefits you have awarded to younger veterans, especially the 
stipend and extensive health care benefits for veterans' family 
caregivers under Public Law 111-163. I defy anyone to tell me that the 
struggles of a family caregiver of a severely disabled veteran from the 
war in Vietnam are ``easier'' and less burdensome than those of a 
caregiver of a similar veteran of Afghanistan. They both struggle; they 
both suffer. They both need our support. Congress should not leave one 
of them behind while benefitting the other.
    With the realization that we will receive ample opportunities this 
year and next to more fully address many of DAV's specific legislative 
resolutions during hearings before your Committees and personally with 
your staffs, I shall only highlight key ideas in this statement. I 
assure you that all of these concepts are covered by DAV national 
resolutions. Working together with our VSO partners, and relying upon 
the strength of our grassroots members and supporters, DAV will work 
aggressively and proactively to advance these key legislative 
priorities, while continuing to look for opportunities to promote all 
DAV legislative and policy goals. These are our key priorities, and on 
behalf of our 1.2 million members, I ask that you consider them.
Health Care Services
    <bullet>  Ensure sufficient, timely, and predictable funding for VA 
health care programs in the FY 2014 appropriation and the FY 2015 
advance appropriation bills.
    <bullet>  Develop and promote new legislation and policies that 
will strengthen and expand advance appropriation for VA health care, 
including new accountability measures.
    <bullet>  Develop and build support for a comprehensive long term 
plan to address VA's aging health care infrastructure needs, including 
VA research facilities.
    <bullet>  Expand caregiver services to meet the needs of veterans' 
caregivers from all eras.
    <bullet>  Improve timely access to veterans suffering from TBI, and 
mental health care and counseling services, with particular focus on 
newer veterans in transition.
    <bullet>  Strengthen and expand women veterans health care programs 
and services.
    <bullet>  Develop a comprehensive plan reforming VA long-term 
support and services.
    <bullet>  Provide priority access and timely, quality health care 
services to service-connected disabled veterans.
    <bullet>  Repeal VA and Department of Defense co-payments for 
medical care and prescription medications.
    <bullet>  Repeal beneficiary travel deductibles for service-
connected disabled veterans and support increased reimbursement rates.
Employment and Economic Opportunities
    <bullet>  Develop and enact legislation to transfer veterans' 
employment programs from the Department of Labor to VA as part of a new 
Veterans Economic Opportunity Administration that also includes, 
vocational rehabilitation and employment programs (VR&E), education and 
business programs.
    <bullet>  Strengthen veterans' VR&E.
    <bullet>  Improve delivery of transition services to all separating 
service members.
    <bullet>  Support legislative measures to assist disabled veteran-
owned businesses.
    <bullet>  Provide survivors of veterans who are service-disabled 
veteran-owned small business owners, but rated less than 100 percent 
service-connected, a reasonable transition period to restructure their 
businesses following the deaths of veteran owners.
    <bullet>  Eliminate the current 12-year eligibility limit for 
veterans to take advantage of their vocational rehabilitation benefits.
Disability Compensation and Other Benefits
    <bullet>  Complete the ongoing reform of VA's benefits claims 
processing system, with the focus on quality, accuracy, accountability 
and timeliness.
    <bullet>  Develop and promote legislation and policies to expand 
the use of interim ratings for veterans filing complex and multi-issue 
disability compensation claims.
    <bullet>  Ensure that any revisions to the VA Schedule for Rating 
Disabilities (VASRD) being considered by VBA remain faithful to 
longstanding statutory policy underlying the purpose of the VA 
disability compensation system.
    <bullet>  Eliminate inequitable policies that prohibit the 
concurrent receipt of VA disability compensation and military retired 
pay and that require Dependency and Indemnity Compensation and military 
Survivor Benefit Plan payments to be offset.
    <bullet>  Provide for a 10-year protection period for service-
connected disability evaluations.
    <bullet>  Reduce the 10-year rule for Dependency and Indemnity 
Compensation.
    <bullet>  Exclude veterans' disability compensation from countable 
income for purposes of eligibility for benefits and services under 
other government programs.
    <bullet>  Award interest payments for VA retroactive awards of one 
year or more.
    <bullet>  Oppose any proposal that would offset payments of Social 
Security Disability Insurance benefits or any other federal benefit by 
the amount of VA compensation.
    <bullet>  Contest any scheme to means test disability and death 
compensation.
    <bullet>  Resist any change that would redefine service-connected 
disability or restrict the conditions or circumstances under which it 
may be established.
    <bullet>  Oppose any recommendations by any commission to reduce or 
eliminate benefits for disabled veterans.
General Issues
    <bullet>  Extend military commissary and exchange privileges to 
service-connected disabled veterans.
    <bullet>  Provide space-available air travel aboard military 
aircraft to 100 percent service-connected disabled veterans.
    <bullet>  Award educational benefits to dependents of service-
connected veterans rated 80 percent or more disabled.
    <bullet>  Exempt the benefits paid to wartime service-connected 
disabled veterans from the ``Pay-Go'' provisions of the Budget 
Enforcement Act.
    <bullet>  Reduce premiums for Service Disabled Veterans' Insurance 
consistent with current life expectancy.
    <bullet>  Provide fullest possible accounting of POW/MIAs from all 
wars and conflicts.

IN CONCLUSION
    Messrs. Chairmen, and especially for the newest Members of these 
Committees, I hope my testimony today demonstrated to you that DAV does 
not come before these Committees or Congress at large with our hands 
out to ask Congress for special favors, profits, tax advantages, or 
unearned benefits. We are not a special interest; we are a broad, 
general interest of the American people. We believe our members, and 
all veterans who were harmed as a consequence of their military 
service, earned their benefits and paid for them in full, and in 
advance. It is true that some of our injured and wounded veterans do 
need a hand up in their post-service lives - for transition services; 
rehabilitation and health care; prosthetics for lost limbs; insurance 
for the uninsurable; education; housing, including housing those who 
become homeless; business opportunities; compensation for the living, 
and pensions for the survivors of those we have lost - all these earned 
with service and sacrifice. These benefits and services help veterans 
restore themselves and prepare them for a future as productive 
citizens, or to comfort them if they lost their ability to work as a 
consequence of military service, or to keep them from slipping into 
poverty. Given what veterans have done for this country since its 
founding, we believe it's a small price to pay, but it's also the price 
of freedom.
    As our testimony today shows once again, DAV not only advocates on 
behalf of our nation's wounded and injured veterans, but we also 
continue to give back to our nation and to our fellow veterans through 
the programs detailed in my statement, in volunteerism, transportation, 
service, therapeutic recreation, claims representation, disaster 
relief, and all the other good works in which DAV engages on a broad 
national scale. In absence of DAV, the government might well save a few 
dollars by providing fewer services and benefits to veterans and by 
cutting some corners, but the whole nation would suffer the greater 
loss from the void that would leave behind.
    Messrs. Chairmen, I hope that I have been able to demonstrate to 
you and your colleagues that DAV devotes its resources to the most 
needed and meaningful services for our wartime veterans. These services 
aid wounded and injured veterans directly and support and augment VA 
programs. I believe DAV is one of VA's most valuable partners in caring 
for veterans. I trust you can see why the men and women of DAV and its 
Auxiliary are so proud of this great organization and all that it does 
for VA, veterans, their families and survivors every day of every year.
    In closing, let me again say that it has been my honor and a 
highlight of my life to appear before you today to be the voice for 
DAV, to present our legislative goals for 2013 and present the major 
issues and concerns of the Disabled American Veterans. I know that all 
of us present in this room and all DAV and DAV Auxiliary members 
nationwide share a deep and abiding respect for the brave men and women 
who serve our country so selflessly, especially those still in harm's 
way overseas, not only in Afghanistan and Iraq, but in many other 
dangerous and challenging assignments the world over.
    As these Committees deliberate during this, the first session of 
the 113th Congress, please keep in mind that wounded and injured 
veterans, and their loved ones, caregivers and survivors, have paid a 
high price for the freedoms we all cherish, and that some take for 
granted. The only action that we ask in return to repay their 
sacrifices and their service to our country is for this government to 
honor its sacred obligations and keep its historic promises to 
America's veterans, their families, and their survivors. The defenders 
of our nation deserve nothing less and will ask for nothing more.
    My staff and I are prepared to further discuss any matters of your 
interest that are relevant to DAV, my testimony, or to respond to your 
questions. It was my honor to address this joint hearing.
    May God bless the United States of America, our Congress, our 
people, our military personnel deployed on land and aboard ship around 
the world, and all veterans who were wounded or injured in service to 
our nation.

                                 <F-dash>
                        Question For The Record

Letter and Post-Hearing Question From: Hon. Michael Michaud, Ranking 
        Minority Member, U.S. House of Representatives, Committee on 
        Veterans' Affairs, Full Committee, To: Joseph A. Violante, 
        National Legislative Director, Disabled American Veterans (DAV)

    February 27, 2013

    Joseph A. Violante
    National Legislative Director
    Disabled American Veterans
    807 Maine Avenue, SW
    Washington, DC 20024-25410

    Dear Mr. Violante:

    In reference to our Joint House and Senate Veterans' Affairs 
Committee Legislative Presentation of the Disabled American Veterans 
that took place on February 26, 2013, I would appreciate it if you 
could answer the enclosed hearing question by the close of business on 
April 9, 2013.

    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.

    Due to the delay in receiving mail, please provide your response in 
a word document to Carol Murray at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8fcceefde0e3a1c2fafdfdeef6cfe2eee6e3a1e7e0fafceaa1e8e0f9a1">[email&#160;protected]</a> If you 
have any questions, please call 202-225-9756.

    Sincerely,

    MICHAEL MICHAUD
    Ranking Democratic Member

    ND:cm

    1. As part of the claims processing transformation, VA is 
establishing ``express lanes'' for fully developed claims, and claims 
with a small number of straightforward conditions. In your estimation, 
would it be possible and feasible to expand the role for VSOs in 
processing these types of claims, perhaps with VA in an audit or 
approva role? What would be the new role, and how might it be 
implemented?

                                 <F-dash>
Response From: Joseph A. Violante, DAV, National Legislative Director, 
        To: Hon. Michael Michaud, Ranking Minority Member, U.S. House 
        of Representatives, Committee on Veterans' Affairs, Full 
        Committee
    Currently, DAV (Disabled American Veterans) provides free claims 
representation to more than 300,000 veterans and survivors every year. 
DAV has increased its efforts to provide the Department of Veterans 
Affairs (VA) with fully developed claims (FDCs) whenever it is 
practical or feasible for our National Service Officers (NSOs) to do 
so. According to VA's estimates, for fiscal year (FY) 2012 and part of 
FY 2013, DAV NSOs filed more than 14,500 FDCs. Of those, about 11,300, 
or almost 78 percent, were accepted by VA as FDCs; however, almost one-
quarter were rejected by the FDC program. DAV is working with VA to 
determine the reasons for those FDC rejections and to increase our 
submission of fully developed claims in the future.
    Your question regarding how VSOs might expand their role in the FDC 
program appears to imply that VSOs could take on some of the roles and 
responsibilities currently performed by VA, such as the adjudication of 
claims. Further, your question suggests a process in which VA's role in 
FDCs could be reduced to merely auditing decisions that were 
promulgated by VSOs, or perhaps VA would only be approving draft 
decisions put forward by VSOs. A somewhat similar idea had been 
proposed by a prior Committee Chairman and DAV, along with most other 
VSOs, rejected that idea for a number of reasons.
    In response to your specific question, DAV would be strongly 
opposed to such an expansion of our duties, which would put us in the 
position of deciding claims that we helped our clients prepare and 
submit. Rather than serving as the veterans advocate, we would now be 
their judge. In essence, we would be doing VA's job and effectively 
become the final arbiter of our client's claim. It would fundamentally 
make it impossible for us to represent the veteran in an appeal if we 
had previously determined that the evidence was insufficient to grant 
the benefits sought. It would place DAV in an untenable situation, a 
no-win situation, forcing us to use our limited resources to do work 
that is VA's fiduciary responsibility, while, at the same time, putting 
us in a potentially adversarial situation with our clients.
    Presently, DAV NSOs play a vital role in the claims process. DAV's 
NSOs assist veterans in preparing and submitting their claims, thereby 
reducing the amount of work necessary for VA to complete in order to 
process a claim. In addition, our NSOs provide VA with recommendations 
on how the claim can be granted based on the evidence of record and the 
law. From our experiences, we have found that in many instance, had VA 
agreed with the arguments we made in support of the veteran's claim, 
many needless appeals could have been prevented. Finally, DAV NSOs 
review the VA claims decisions before they are finalized, providing a 
vital quality control check to ensure greater accuracy in rating 
decisions. Again, if VA would act upon our recommendations at this 
point, many needless delays in delivering the benefits sought could be 
avoided.
    Rather than seeking new tools, we believe that VA should focus on 
maximizing the use of tools already available to them that can expedite 
claims, such as pre-stabilization ratings under title 38, Code of 
Federal Regulations, section 4.28, or for serious illness, financial 
hardship or other sufficient cause, under 38 Code of Federal 
Regulations, section 20.900(c), advancement on the docket for appeals 
at the Board of Veterans' Appeals (and available for application during 
the claims process, but not sufficiently utilized by VA). However, for 
the most part, VA does not maximize their use of these important 
authorities, even when DAV NSOs bring appropriate cases to VA's 
attention.
    From our decades of experience working on veterans claims, we fully 
understand both the magnitude and complexity of the challenges VA faces 
in trying to accurately adjudicate more than a million claims each year 
in a timely manner, and we remain committed to doing all we can to help 
develop and implement solutions. As we have said many times in the 
past, and it bears repeating, the backlog is a symptom, not the cause 
of VA's claims processing problems. The permanent solution to the 
problem will require new technologies and business processes, and most 
importantly, a cultural transformation built upon the foundations of 
quality, accuracy and accountability. DAV believes that significant 
progress has been made by VA in bringing about some of these changes, 
but that more can and must be done.
    Further, I would reiterate some key recommendations regarding the 
reform of the VA claims processing system as the best focus for 
Congress in seeking to address the reform of VA's claims processing 
system and the backlog.
    First, Congress should enact new legislation that maximizes the use 
of private medical evidence to conserve Veterans Benefits 
Administration (VBA) resources and enable quicker, more accurate rating 
decisions for veterans. DAV and other VSOs have long encouraged VBA to 
make greater use of private medical evidence when making claims 
decisions, which would save veterans time and VBA the cost of 
unnecessary examinations. Disability Benefits Questionnaires (DBQs), 
many of which were developed in consultation with DAV and other VSO 
experts, have been designed to allow private physicians to submit 
medical evidence on behalf of veterans they treat in a format that aids 
rating specialists. However, we continue to receive credible reports 
from across the country that many Veterans Service Representatives 
(VSRs) and Rating Veterans Service Representatives (RVSRs) do not 
accept the adequacy of DBQs submitted by private physicians, resulting 
in redundant VA medical examinations being ordered and valid evidence 
supporting veterans' claims being rejected.
    Although there are currently 81 approved DBQs, VBA has only 
released 71 of them to the public for use by private physicians. In 
particular, VBA should allow private treating physicians to complete 
DBQs for medical opinions about whether injuries and disabilities are 
service connected, as well as DBQs for post-traumatic stress disorder 
(PTSD), which current VBA rules do not allow; only VA physicians can 
make PTSD diagnoses for compensation claims. Congress should work with 
VBA to make both of these DBQs available to private physicians.
    To further encourage the use of private medical evidence, Congress 
should amend title 38, United States Code, section 5103A(d)(1) to 
provide that, when a claimant submits private medical evidence, 
including a private medical opinion, that is competent, credible, 
probative, and otherwise adequate for rating purposes, the Secretary 
shall not request a VA medical examination. This legislative change 
would require VSRs and RVSRs to first document that private medical 
evidence was inadequate for rating purposes before ordering 
examinations, which are often unnecessary.
    In addition, VBA should accelerate the development of software that 
seamlessly translates relevant information from Veterans Health 
Administration medical examinations performed by treating physicians 
into appropriate DBQs for VBA rating specialists. This free flow of 
electronic health data would save veterans time and VBA resources by 
further eliminating unnecessary VBA compensation exams.
    Second, Congress should expand existing and create new authorities 
to rapidly award partial or temporary benefits to disabled veterans 
when the evidence of record clearly supports such awards. As mentioned 
above, VBA currently has the authority under 38 CFR 4.28 to issue pre-
stabilization ratings for veterans who are discharged from active duty 
due to severe injuries or illnesses that are not yet fully stabilized 
or healed, and which cause significant limitations in their ability to 
be employed. VBA also has rules to award intermediate rating decisions 
with deferred issues as discussed in M21-1MR, Part II, Subpart iv, 
Chapter 6, Section A. Intermediate rating decisions for multi-issue 
claims can be made when the record contains sufficient evidence to 
decide some of the claimed issues, including service connection, even 
though remaining issues require further development, and will be 
deferred. Although VBA has had these authorities for a number of years, 
VBA rarely takes advantage of them to provide at least partial or 
minimum benefits to veterans on an expedited basis. Concerns about 
``double work'' and performance standards that fail to properly credit 
these two ratings actions have discouraged the widespread use of these 
valuable rating authorities.
    DAV believes that both pre-stabilization and intermediate ratings 
should be encouraged and expanded to apply to additional circumstances. 
Currently, pre-stabilization ratings can only be awarded at two rating 
levels - 50 percent and 100 percent--thereby limiting the number of 
veterans who could benefit from this authority. DAV recommends that a 
third level - 30 percent - be added in order to rapidly award at least 
some minimum level of benefits to veterans who need support in their 
recoveries. The 30 percent rating would also open the door for veterans 
to receive other important benefits, such as vocational rehabilitation, 
more quickly to support their transition. In addition, we would 
encourage Congress and VBA to expand the use of intermediate ratings by 
creating a category of ``interim'' or ``temporary minimum'' ratings for 
claims in which the evidence of record is already sufficient to support 
at least a minimum service-connected disability rating. Similar to 
intermediate ratings, these ``interim'' or ``temporary minimum'' 
ratings should not slow or impede the regular development and 
processing of the rest of the claim. With the adoption of paperless e-
folders and smart processing, all of these temporary rating authorities 
could be more easily accomplished without the risk of ``double work'' 
by VBA.
    Although these temporary rating authorities would not directly 
reduce VBA's workload or the backlog, providing a rapid award of at 
least some benefits, based on the available records, to disabled 
veterans would increase overall confidence in the claims process, and 
likely help to reduce the number of appeals filed by claimants. Most 
importantly, these changes would expedite much-needed assistance into 
the hands of veterans and their families during difficult transitions 
and recoveries.
    Finally, Congress should enact new legislation to provide a 
presumption of service connection for tinnitus and hearing loss for 
veterans who served in combat or whose military occupation specialty 
(MOS) exposed them to high levels of noise. During their military 
service, many veterans were exposed to significant acoustic trauma from 
very high levels of noise caused by heavy machinery, aircraft, 
explosive devices or numerous other causes. As a result, many of them 
later in life develop hearing loss and tinnitus, but often have a hard 
time proving it was due to their service because of inadequate testing 
and record keeping while in service. Tinnitus is the number one 
service-connected disability from all periods of service, with more 
than 800,000 veterans receiving disability compensation, and that 
number has steadily grown each year. Over 700,000 veterans have been 
rated for hearing loss, making that the second highest total for 
service-connected disabilities. By creating a reasonable presumption, 
not only would thousands of veterans receive compensation to which they 
are entitled, but VBA would be able to redirect resources from 
unnecessary development of these claims to address its other needs. 
Both the affected veterans and VBA would benefit from this limited and 
reasonable presumption.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
